<html>
<title> - THE GLOBAL RELIGIOUS FREEDOM CRISIS AND ITS CHALLENGE TO U.S. FOREIGN POLICY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 THE GLOBAL RELIGIOUS FREEDOM CRISIS AND ITS CHALLENGE TO U.S. FOREIGN 
                                 POLICY

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2016

                               __________

                           Serial No. 114-217

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                           U.S. GOVERNMENT PUBLISHING OFFICE
20-457PDF                          WASHINGTON: 2016                           
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David N. Saperstein, Ambassador-at-Large for 
  International Religious Freedom, U.S. Department of State......     5
Robert P. George, Ph.D., McCormick Professor of Jurisprudence, 
  Princeton University (former chairman, U.S. Commission on 
  International Religious Freedom)...............................    33
M. Zuhdi Jasser, M.D., president, American Islamic Forum for 
  Democracy (former vice-chair, U.S. Commission on International 
  Religious Freedom).............................................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable David N. Saperstein: Prepared statement............     9
Robert P. George, Ph.D.: Prepared statement......................    38
M. Zuhdi Jasser, M.D.: Prepared statement........................    55

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable David N. Saperstein: Exploring the Trends and 
  Consequences of Religious Registration: A Global Overview......    82
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: 2016 Annual Report of the United States 
  Commission on International Religious Freedom..................    83
Written responses from the Honorable David N. Saperstein to 
  questions submitted for the record by the Honorable Christopher 
  H. Smith.......................................................    89

 
                  THE GLOBAL RELIGIOUS FREEDOM CRISIS
                   AND ITS CHALLENGE TO U.S. FOREIGN
                                 POLICY

                              ----------                              


                        THURSDAY, JUNE 16, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    And good afternoon to everybody.
    First of all, let me say I deeply regret the delay. We did 
have a series of more than two dozen votes on the floor. No one 
can ever anticipate that. So I thank you for your patience and 
forbearance.
    And we have no further votes, which is a plus and a minus. 
Some of the members are getting on planes to go home, and that 
is the minus. The plus is we won't be interrupted for the 
remainder of the hearing.
    Let me begin by just noting I have chaired numerous 
hearings on religious freedom since the mid-1990s, starting 
with my first two: One was called ``The Worldwide Persecution 
of Jews,'' in 1996; and ``The Persecution of Christians 
Worldwide,'' which followed just a few weeks later. Ever since, 
I have chaired dozens of hearings examining worldwide attacks 
on religious freedom.
    Tragically, especially in recent years, the situation has 
significantly deteriorated and begs a significant, expanded, 
and sustained response from the United States and from the 
world community.
    On May 26, our subcommittee asked ``What's next?'' after 
Secretary Kerry's genocide designation. Our witnesses made 
excellent suggestions, including Supreme Knight Carl Anderson, 
who proposed--and I just encapsulate his recommendations--that 
we increase aid and ensure that it actually reaches those in 
need, support the long-term survival in the region of those 
ancient indigenous religions and ethnic communities, and punish 
the perpetrators of genocide and crimes against humanity.
    And I would note parenthetically that I have authored a 
resolution and had a series of hearings in this room about 
establishing a hybrid, a regional court, like we had in Sierra 
Leone. And we actually had David Crane, the chief prosecutor, 
who said, while the ICC is a nice idea, it has proven itself 
largely incapable of taking on a responsibility such as this. 
But a hybrid court, as we saw with Charles Taylor, gets those 
who commit these horrific genocide acts and puts them behind 
bars. And, in the case of Charles Taylor, it is for 50 years.
    Carl Anderson also emphasized that we assist victims of 
genocide in attaining refugee status. And that poses very 
significant problems, where Christians do not have the kind of 
access to the UNHCR that they ought to have and never get in 
the queue and, as a result, end game, never get here or any 
other third country for asylum.
    And, also, a very interesting point he made was: Prepare 
now for the foreseeable future of human rights challenges, as 
ISIS-controlled territories are liberated, by ensuring that 
Christians and other minorities have equal rights to decide the 
future.
    We are very, very grateful to have Ambassador David 
Saperstein, the Ambassador-at-Large for the International 
Religious Freedom Office, a man who has committed so much of 
his life to religious freedom, who will provide insight and a 
roadmap for going forward.
    It is also a very high honor to welcome the outgoing 
chairman of the United States Commission on International 
Religious Freedom, Dr. Robert George, as well as Dr. Zuhdi 
Jasser--two religious freedom leaders with exemplary records of 
service.
    Religious liberty is called America's first freedom and one 
of our Nation's founding ideals. It is the right to believe or 
not believe and to practice one's religion according to the 
dictates of one's own conscience.
    The right is not only an American value, it is a universal 
principle. The right to religious freedom flows from the 
dignity of each and every human person and, as such, deserves 
to be protected everywhere and for everyone--no exceptions.
    Sadly, in large parts of the world, this fundamental 
freedom is constantly and brutally under siege. The world is 
experiencing a crisis of religious freedom that poses a direct 
challenge to U.S. interests in the Middle East, central and 
east Asia, Russia, China, and sub-Saharan Africa.
    In Burma, Bangladesh, and Pakistan, there are Muslim, 
Christian, and Hindu minorities facing systematic violence and 
discrimination. In China, Vietnam, and North Korea, independent 
religious practice is viewed as an unwanted competitor to the 
communist state, leading to severe restrictions, arrests, and 
systemic torture.
    Governments are not the only ones repressing religious 
practice. Non-state actors increasingly are a pernicious threat 
to religious liberty around the world. In the Middle East, 
terrorist groups like ISIS have been committing genocide in an 
attempt to exterminate ancient religious communities.
    This subcommittee's hearings include, most recently, one 
last month with witnesses from civil society who did focus on 
what is next when we are talking about the designation made by 
Secretary Kerry.
    We must ensure that we are doing everything we can to 
prevent genocide, mass atrocities, and war crimes against 
religious minorities in Iraq and Syria and to ensure 
perpetrators are held accountable.
    This is also true of Boko Haram, as I mentioned earlier. 
Both Greg Simpkins, our staff director, and I have viewed 
firsthand churches and mosques that have been destroyed by Boko 
Haram. I will never forget being in Jos, Nigeria, visiting with 
survivors who told harrowing stories of what it was like to 
have car bombs and people with AK-47s bursting into their 
congregations to destroy as many people as they possibly could.
    It is no coincidence that the worst violators of religious 
freedom globally are often the biggest threat to our Nation. 
They are those who wish the Americans the most harm. Thus, the 
promotion of religious liberty is also important to our foreign 
policy initiatives, especially the promotion of human rights in 
general and democracy in particular.
    Eighteen years ago, Congress passed the landmark 
International Religious Freedom Act of 1998. That act made 
protection and promotion of religious freedom a priority, which 
it had not been in U.S. foreign policy. Three different 
administrations have developed religious freedom policy, and 
three different administrations have had some success but also 
some failures to check the overall rise of religious-related 
violence and the decline of religious freedom globally.
    It is worth asking, what can we do better? Are new tools or 
ideas needed to help address the crisis? Does the International 
Religious Freedom Act need to be upgraded to reflect 21st 
century realities? Where are the flash points of persecution 
that need additional attention and resources, and how do we 
address them?
    That is why I introduced the Frank R. Wolf International 
Religious Freedom Act, H.R. 1150, along with Representative 
Anna Eshoo. The bill is named after former Congressman Frank 
Wolf, the primary author and great champion of the original 
International Religious Freedom Act, and that legislation has 
been landmark and decisive in its implications.
    H.R. 1150 strengthens the role played by the Ambassador-at-
Large for Religious Freedom within the State Department, gives 
the Ambassador more tools, and the ability to better utilize 
existing resources. The bill will elevate the Ambassador's 
status, sending the signal inside the government bureaucracy 
that this policy a priority; it is not an asterisk at the end 
of a list of talking points that the President or Secretary of 
State has when he meets with his foreign interlocutors, 
especially Prime Ministers and Presidents.
    More importantly, it will demonstrate to victims of 
religious persecution that they are not forgotten. As it says 
in the Bible, ``Hope deferred makes the heart sick.'' And if 
people think that nobody has their back, people do lose heart.
    The bill also provides a way for the administration to 
better coordinate international religious freedom policy. And 
there are an ever-expanding number of special envoys, special 
advisers, and Ambassadors who often have overlapping mandates.
    U.S. diplomats also need better training to recognize and 
understand the issues that they will face during their service 
abroad, not some cursory, superficial ``this is what religious 
freedom is, these are what the different denominations and 
beliefs adhere to, religious tenets,'' to really get into the 
thick of it, so when they are deployed--and that includes 
Ambassadors--they are better equipped to deal in-country with 
the challenges that they will face.
    The bill gives the President new options to address the 
decimation visited upon religious minorities by non-state 
actors and terrorist groups.
    I have to point out, this subcommittee and my good friend 
and I and others have worked so hard for 3 years to get a 
Foreign Terrorist Organization designation for Boko Haram. If 
you go back and look at the record, we had Assistant Secretary 
of State Johnny Carson sit right where Rabbi Saperstein sits 
now, telling me, telling my subcommittee that they are just 
trying to embarrass the Presidency of Goodluck Jonathan, rather 
than being a radical Islamic organization intent on forcing 
people to become Muslim, and a radical portion of that as well, 
and also to kill pious Muslims who stand in their way.
    It took 3 years. It wasn't until we were going to mark up a 
bill in this room, the day of it, under John Kerry, not under 
Secretary Clinton, because she was against it, that we had a 
designation of Foreign Terrorist Organization for Boko Haram. 
And we all know they are now the deadliest organization in the 
world, killing, maiming, raping, and butchering.
    Finally, this bill recognizes the connection between 
advancing religious freedom globally and U.S. national security 
and economic interests, the interrelatedness of all of it. The 
evidence has shown repeatedly that U.S. national security and 
economic interests are directly tied to religious freedom. 
Religious freedom can act to undermine the religious-related 
violence perpetrated by non-state actors.
    This bill, H.R. 1150, was unanimously passed by the House. 
It is pending in the Senate. Our hope and prayer is that the 
Senate will take it up.
    And, again, before going to our distinguished rabbi, 
Ambassador-at-Large David Saperstein, I would like to yield to 
Mark Meadows for any opening comments he might have.
    Mr. Meadows. Thank you, Mr. Chairman.
    I will be very brief because, obviously, we want to hear 
from you.
    I think the troubling thing for most Americans and, indeed, 
for most of the country and the world at large is that rhetoric 
that we defend religious liberties without action actually does 
more harm than good.
    And I think, Ambassador, what I am hopeful to hear from you 
is the action that will follow our rhetoric and where we have 
to truly stand up--and we are seeing it across many of the 
headlines--on what religious liberty is and what it is not and 
really where we have to focus on as a body here in Congress 
and, indeed, as the beacon of freedom in the world that the 
United States holds is that we have to stand up.
    We can't exchange the protection of religious liberties for 
economic gain. We can't exchange the protection of religious 
liberties for potential geopolitical gains. What we must do is 
stand up for religious freedom, and the rest will follow.
    And so, Ambassador, I welcome you, as I do our two 
distinguished guests that will be on the second panel.
    And I will yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    But, just very briefly, Ambassador Saperstein is the 
Ambassador-at-Large for International Religious Freedom. He was 
confirmed by the Senate in December 2014, sworn in and assumed 
his duties in January 2015.
    Ambassador Saperstein previously served for 40 years as the 
director of the Religious Action Center of Reform Judaism. A 
rabbi and an attorney for 35 years, Rabbi Saperstein taught 
seminars in First Amendment church-state law and in Jewish law 
at Georgetown University Law Center.
    He has served on the boards of numerous national 
organizations, including the NAACP. In 1999, Ambassador 
Saperstein served as the first chair of the U.S. Commission on 
International Religious Freedom.
    Rabbi Saperstein, it is an honor to welcome you. And please 
consume whatever time you think is necessary.

 STATEMENT OF THE HONORABLE DAVID N. SAPERSTEIN, AMBASSADOR-AT-
 LARGE FOR INTERNATIONAL RELIGIOUS FREEDOM, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Saperstein. Chairman Smith and Mr. Meadows, I am 
really honored and pleased to be here, and thank you for this 
opportunity to discuss the critical issue of religious freedom. 
I am honored, as well, to address this with two such 
distinguished advocates for religious freedom, Robbie George 
and Zuhdi Jasser.
    I commend this subcommittee, all of you on this 
subcommittee, for your continuing focus and your effective 
efforts on behalf of the vital universal human right of 
religious freedom. And I thank you, Mr. Chairman, for your 
longstanding attention to international religious freedom 
violations, cases, and concerns. I truly cherish our 
partnership that we have had over the years.
    And one has only to read the headlines in recent weeks and 
months to know that the challenges to religious freedom are 
daunting.
    First and foremost, we absolutely must address the horrific 
and brutal predations of Daesh's activities in Iraq and Syria. 
In the months since Secretary Kerry's statement that, in his 
judgment, Daesh is responsibility for genocide, crimes against 
humanity, and ethnic cleansing in the areas that it controls, 
we have significantly strengthened our efforts to ensure a 
viable future for members of impacted communities.
    We must, as well, seek accountability for the heinous acts 
committed by the Daesh terrorists. As Secretary Kerry has said, 
the United States will strongly support efforts to collect, 
document, preserve, analyze the evidence of atrocities, and we 
will do all we can to see that the perpetrators are held 
accountable.
    In liberated areas, we are funding the investigation and 
documentation of mass graves, and we are looking into ways to 
use satellite telemetry and geospatial analysis to identify 
potential atrocity sites that remain in areas under Daesh 
control.
    With Iraqi and international agencies, we are engaged in 
discussions on how to best establish transitional justice 
programs to be developed now, before people begin to move back 
to communities, in order to mitigate the potential for renewed 
sectarian violence.
    We are also actively working with the Government of Iraq to 
identify and return cultural and religious artifacts stolen and 
later sold by Daesh to fund its activities. We are also 
working, particularly in partnership with the Smithsonian 
Institution, with local communities to help them determine how 
they can preserve their religious and cultural heritage, 
including by preserving churches, shrines, cemeteries, 
synagogues, and mosques.
    As a tangible outcome of the Secretary's genocide 
announcement, in July we will be convening in Washington an 
intergovernmental conference to advance ways to protect 
religious minorities in Iraq and Syria. Before and during this 
meeting, we plan to map out the existing programs the varied 
countries are doing, identify current gaps in programming, 
discuss potential next steps, and to strengthen global 
collaboration in our assistance to religious and ethnic 
minorities in Iraq and Syria.
    To move to another topic, the Secretary has announced the 
designation of 10 Countries of Particular Concern for engaging 
in or tolerating systematic, ongoing, egregious violations of 
religious freedom, which included for the first time the 
addition of Tajikistan to that list. The CPC countries include 
Burma, China, Eritrea, Iran, North Korea, Saudi Arabia, Sudan, 
Tajikistan, Turkmenistan, and Uzbekistan.
    I testified earlier before you that we wanted to make the 
CPC process more consistent, more robust. We would not limit 
ourselves to announcing these designations only at one point in 
the year, usually around the report. We can add countries 
whenever justified, as Tajikistan exemplifies, even as we work 
assertively to develop action plans with existing CPC countries 
to help them take steps necessary to move them off the CPC 
list.
    During my 18 months as Ambassador-at-Large, I have traveled 
to 20 countries, including 3 of the 10 CPCs. I will visit two 
more of them this July. During my trips, I have met with 
countless government officials, parliamentarians, human rights 
activists, religious leaders, believers from nearly all world 
religious traditions, including skeptics and nonbelievers, 
including those seeking reforms in their religious traditions 
and those seeking reforms within their governments, raising our 
concerns consistently along the way.
    What has stood out is the incredible irrepressible spirit 
of all the individuals who risk discrimination, imprisonment, 
and even death for simply seeking to live out their lives in 
accordance with their conscience.
    It is particularly memorable to me that I was in a crowded 
Sudanese courtroom in August 2015 to observe the release of two 
prominent prisoners of conscience, Pastor Yat Michael Ruot and 
Pastor Peter Yen Reith, for simply speaking about their faith. 
They had faced multiple charges, including blasphemy, promoting 
hatred amongst religious groups. They never should have been 
charged or imprisoned in the first place, yet now some of those 
charges--they were freed and out of the country--have been 
restored.
    And other Christian pastors, including Hassan Abdelrahim 
Tawor and Kowa Shamal, are currently in prison facing similar 
charges related to their faith. The continued presence of 
restrictive laws and the specter of heavy-handed government 
action against individuals of faith casts a pall over religious 
life in that country.
    And I mention Sudan precisely because I genuinely hoped 
that this was a country that was interested in making changes 
and could come off the CPC list. We had received some 
encouraging signals from key government officials, but we have 
yet to see the hoped-for improvements actualize. We must 
continue to press for reforms in all CPC countries, Sudan 
included.
    Now, Chairman Smith, I know of your keen interest in China, 
another CPC. In August 2015, we went to China to raise 
important concerns. We actually saw some positive signs in some 
geographic areas of the country, where more unregistered 
churches were allowed to function, more religious entities were 
allowed to engage in providing social services.
    I wish that we had been able to lift those up and to talk 
about them, but in other areas of the country--to talk about 
them even more than we did as indicative of changes in China. 
But, in other areas of the country, restrictions were far more 
than norm and far greater.
    Repression of Tibetan Buddhists and Falun Gong continues 
unabated. Restrictions on Uyghur Muslims have increased. 
Chinese officials have sought to politicize theology in state-
sanctioned churches by compelling modifications of Christian 
teachings to conform to socialism.
    We were shocked when authorities detained human rights 
lawyer Zhang Kai and several other church leaders as they were 
preparing to meet with me about the tearing down of crosses in 
Wenzhou. I was appreciative of your calls, congressional calls, 
for their release and know similar calls that emanated from 
many with whom we work in the international community. They 
were finally released. The campaign to end, the campaign to 
destroy crosses appears to have stopped for the moment, but, as 
we know, too many others remain in prison for daring to stand 
up for their right to practice their relation.
    During the most recent U.S.-China Strategic and Economic 
Dialogue, Secretary Kerry vigorously raised our concerns about 
growing restrictions on the exercise of religion and 
expression, particularly those that target lawyers, religious 
adherents, and civil society leaders.
    One potentially encouraging area is Vietnam. Since I was 
last here, we have engaged extensively with Vietnamese 
authorities to bring about needed changes in their proposed 
draft law on religion and belief. And I hope we can discuss 
this further in the discussion period.
    We have moved to expand the work of the International 
Contact Group on Freedom of Religion and Belief, which we 
helped to launch last year with my Canadian counterpart, former 
Ambassador for Religious Freedom Andrew Bennett. The Contact 
Group met just last month in a meeting here in Washington that 
we hosted. Representatives of the 16 countries and the European 
Union attended, working together to map out ways we can work 
together more effectively.
    With increased funding from Congress, we are significantly 
expanding our foreign assistance programs. Since the creation 
of the IRF office, we have devoted tens of millions of dollars 
to programs that contribute to the promotion of religious 
freedom.
    It is a deeply encouraging vote of confidence that you have 
appropriated--the Congress has appropriated additional funds in 
fiscal year 2015 and 2016. This will allow us to expand core 
religious freedom programs while starting new programs that 
will strengthen rule of law to protect and support the exercise 
of religious freedom and address issues of violent extremism in 
countries like Nigeria, like the CAR, Bangladesh, provide 
further emergency assistance to individuals mistreated for 
their beliefs, and help countries to live up to the goals of 
U.N. Human Rights Council Resolution 1618 by combating 
religious intolerance in ways that simultaneously advance 
freedom of expression and freedom of religion.
    Over the past year, we have significantly expanded 
religious freedom training programs both for other countries 
across the globe and for our own staff from Embassies all 
across the globe.
    More specifically, we have launched region-specific 
training sessions at Foreign Service Institute facilities 
around the world to help give our officers a clear 
understanding of what religious freedom entails, why it matters 
in the broad context of U.S. foreign policy, and how most 
effectively to promote those rights from an Embassy or 
consulate. We have received extraordinarily positive feedback 
from the nearly 130 State Department staff who have 
participated in these training sessions.
    At the same time, we also continue to offer the semiannual 
4-day religion and foreign policy course that we run in 
conjunction with the Secretary's Office for Religion and Global 
Affairs at the Foreign Service Institute in Arlington.
    Finally, congressional funding is making it possible to 
significantly expand the Office of International Religious 
Freedom and our work. In addition to Special Advisor Knox 
Thames and myself--Mr. Thames sits behind me today--the office 
currently has now 23 full-time staff, and we have plans to hire 
several more very soon.
    This makes it possible to expand the scope of our work to 
better address not only our regional and country-specific work 
but to develop teams on urgent issues, such as protecting 
religious minorities in the Middle East--and Knox Thames has 
done an extraordinary job on that and is the coordinator of the 
upcoming conference in July--the relationship between 
countering violent extremism and religious freedom; combating 
blasphemy and apostasy laws, an issue that is a major priority 
for us; and focusing on restrictive registration regimes.
    I actually am attaching and submitting a study on this 
latter issue of restrictive registration regimes that was 
commissioned by us this year.
    I welcome any questions that you might have. And, again, I 
thank you for your passionate attention to religious freedom 
concerns across the globe. You are a vital and indispensable 
partner in our work.
    [The prepared statement of Ambassador Saperstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Smith. Thank you so much, Ambassador Saperstein.
    Because he has to go, but will come back, I would to yield 
to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, for your 
accommodation.
    Ambassador, thank you for your testimony.
    So let me, I guess, pick up on one particular item. And, I 
guess, one of the concerns I had--you said there were 130 State 
Department employees that had participated in the training?
    Ambassador Saperstein. Yes.
    Mr. Meadows. Out of what universe? I mean, that sounds like 
a small number compared to----
    Ambassador Saperstein. Well, at any given time, there are 
about 190 people, probably a few more, actually, because 
consulates sometimes have their own people, who have direct 
responsibility for----
    Mr. Meadows. So you were saying 130 of the 190 that have 
the direct responsibility----
    Ambassador Saperstein. That is right.
    Mr. Meadows [continuing]. Participating?
    Ambassador Saperstein. They are the ones who came to our 
training----
    Mr. Meadows. Oh, okay. All right. Well, that is a more 
significant number.
    Ambassador Saperstein [continuing]. At the Foreign Service 
Institute. Then, a larger number of people who don't have those 
responsibilities participate in those training sessions, as 
well.
    Mr. Meadows. All right.
    After much, I guess, encouragement, we had a genocide 
designation that was made. And so, as I see that designation 
that has been made, I guess, Ambassador, my question is, what 
is next? We made the designation, so where is the action that 
would follow that? And please be specific, if you can.
    Ambassador Saperstein. Let me try my best to run through 
what the different pieces of this are.
    First, we hope to improve the condition of those--it is 
clear ISIL is not going to be removed tomorrow or the next day 
or next week or next month. The displaced populations are going 
to be there for a while, so the quality of life for them has to 
be improved. And we have seen significant increases in our 
funding for those----
    Mr. Meadows. Well, we know we have done our part. I guess 
what I am asking is when are we going to see action on your 
part in a tangible way. I mean----
    Ambassador Saperstein. Well, let me----
    Mr. Meadows [continuing]. Because I am a fiscal 
conservative and I am willing to sign on because this is a 
priority for me. But yet, at the same time, if I continue to 
spend the American taxpayer dollars and no result comes from 
it, Ambassador, that needs to be a message that goes back to 
the administration, that----
    Ambassador Saperstein. So let me run--and I know you have 
to leave. I will do it as quickly as I can, but----
    Mr. Meadows. No, we are good.
    Ambassador Saperstein [continuing]. Let me just run through 
it.
    I believe that the allocation of the recent additional 160-
whatever-it-was million dollars that we did was a reallocation 
within our budget, not----
    Mr. Meadows. Right.
    Ambassador Saperstein [continuing]. An additional 
allocation of Congress on that. So that is number one.
    Number two, there has to be accountability. I talked about 
the atrocities accountability pieces that we are doing of 
identifying where the sites are, helping to train people on the 
ground in how to protect those sites, both in the military when 
they move in and the actual minority communities, about what 
they can do to protect those sites.
    Third, people need to move back with security. And, in 
order to have security, the minority groups need to know that 
their own defense, local defense forces will be integrated into 
whatever system is protecting them. And we have now seen that 
there is additional training for those local defense forces 
that--and this is a new development since the genocide 
designation was made. Training of those defense forces is part 
of our training in general here. So that is another piece of 
what has to be done.
    Fourth, I talked about the transitional justice piece. We 
are going to have people go home to people who took over their 
homes, their businesses. They may have invested in those. Some 
were complicit in ISIL's activities; some were not. They were 
just opportunistic. We have worked with the Iraqi Government on 
this. They have taken steps in terms of ensuring title remains 
with the people who have fled. But there needs to be a 
reconciliation process of how to do this. And we are working 
with the U.N. and others in order to begin to do that, and with 
NGOs who are specialized in mediation from prior places that 
atrocities have taken place.
    We have leaned very hard in terms of working closely with 
Prime Minister Abadi, who has said he wants to change the 
governance structure to ensure minorities have a greater role 
in governance. They need to believe they can help shape the 
future of the country, and we are working on that piece, as 
well.
    And then, of course, the central problem, which will be a 
partnership between Congress and the State Department, will be 
the economic rebuilding of those areas. And there are a number 
of proposals that are before us in our program areas to do 
pilot runs on some approaches to that economic rebuilding.
    Mr. Meadows. Well, Ambassador, with all due respect, some 
of those things that you have just mentioned had nothing to do 
with the genocide designation. I mean, they may be an offshoot 
of that, but their causal effect was not the genocide 
designation. Those were things that were white papers, things 
that we were already embarking on.
    And so I guess my question becomes, at what point in the 
process, in the spectrum of a designation gets made, we have 
all of these great things--and I am not suggesting that none 
of--all of those are great things that we should be doing.
    So I guess what I am saying is, for the American people, 
when we are really talking about affecting those who have been 
displaced----
    Ambassador Saperstein. So two brief points.
    Mr. Meadows. Okay.
    Ambassador Saperstein. Here. I may not have been clear. 
Everything I talked about, I was talking about directly related 
to the minority communities who have been displaced and what is 
necessary to get them back to their----
    Mr. Meadows. And those have happened since we made the 
genocide designation?
    Ambassador Saperstein. Well, that would be my second point.
    Mr. Meadows. That was my point.
    Ambassador Saperstein. That would be my second point.
    Mr. Meadows. Okay.
    Ambassador Saperstein. Clearly, I believe and I believe our 
Nation should be proud of the fact that we were doing 
significant amounts of things, including our military action, 
the coalition of----
    Mr. Meadows. I agree.
    Ambassador Saperstein.--60 countries to help, that we would 
have done had we declared genocide at the very beginning of 
this, and we acted accordingly to that. So the fact that we 
were already doing many of these things and we had plans 
already in motion even before it and we stepped up the 
implementation of that shouldn't be the judgment of whether 
genocide mattered.
    The question is: What are we doing? Are we acting 
appropriately to a situation in which genocidal activity has 
been taking place? And all of this, what we did before and what 
we have done subsequently, I think paints a robust picture.
    Mr. Meadows. All right.
    So, with that robust picture, I will ask my last question. 
There is a thought or at least a hypothesis out there that it 
took so long to get the genocide designation that any followup 
that we are doing is more to comply with that and, in short, 
can be some window dressing. And that is not something that I 
am putting forth. I am just saying that that is something that 
I hear continually from my constituents and those that are 
concerned about this particular issue.
    So, as we look at that, how do we define success in terms 
of really addressing the atrocities that continue and have gone 
on and hopefully will stop soon? How do we define success where 
we are not judging it in terms of the number of people who have 
participated in a training program or the number of people that 
are doing this? How do we do that, Ambassador, so that the next 
time I vote for additional funding I am supported in that?
    Ambassador Saperstein. I will answer that directly. Give me 
20 seconds to make one other point.
    The conference that we are holding----
    Mr. Meadows. Right.
    Ambassador Saperstein [continuing]. It was part of a 
sequence of conferences at the U.N. Security Council, then in 
Paris, that led to an action plan but without commitments from 
countries of what to do.
    After the genocide designation, we moved--the next 
conference got delayed 6 months--we moved immediately to 
contact all the sponsors--France, Spain, Jordan--to say, let us 
have an intermediary conference that will be focused entirely 
on international commitments. That is a direct result of the--
--
    Mr. Meadows. Thank you. That is helpful.
    Ambassador Saperstein. So the test for me is, does it 
protect these minorities, A?
    And I believe, when I saw our intervention on Mount Sinjar, 
when I saw our intervention in the Khabur River in the north of 
Syria here where ISIL was pushed out of areas and prevented 
from engaging in more genocidal activity because of our 
intervention, in that, with the extraordinary help of the KRG, 
there are safety and protection for these people. That is one 
thing.
    Secondly, can they go back safely, and do they have a 
chance to really rebuild and to restore these great, historic 
communities that were part of the marvelous, diverse tapestry 
of life in this region?
    And all of those pieces I have talked about are what we 
think the indispensable pieces are. And I gave you a roadmap as 
to where we are. Some are not as far along as they need to be, 
and we are pushing very hard to ensure that they are. Some we 
are making significant progress on.
    But those, to me, are the test. Can they remain safely in 
place at a quality of life that they will not feel their only 
option is to flee so that those who want to go home can? And 
then can they return back with justice, with security, and with 
opportunity, both economic opportunity and opportunity to shape 
the future of their country? And those, to me, should be the 
ultimate test.
    I think we are making progress, but the world community has 
a lot farther to go still into making that a reality.
    Mr. Meadows. Well, I thank you for that direct answer. It 
is encouraging. We will certainly be following up.
    I hold you in very high regard, as I do your staff. 
Obviously, there are times where competing agendas take place 
here in this city. And so the message that I would like you to 
convey is this is one that should be a top priority. It is 
foundational of who we are, as freedom-loving Americans, and so 
it should be our top priority. And, as that, with the 
chairman's leadership, we are going to continue to follow up. 
And so that message needs to be taken back, if you would do 
that for me, Ambassador.
    Ambassador Saperstein. I give you my word that I will at 
the highest levels, Mr. Meadows.
    And you should be assured about one thing. It may have 
taken us a long time to actually get the actual evidence--
because we didn't have access this to areas that ISIL 
controlled--to get sufficient evidence. And a lot of people 
from the Hill and from the NGO community partnered with us in 
getting that evidence. Nobody pushed that process harder within 
the State Department to say, ``I have to get to the legal 
standard, and this is an absolute priority for me'' than did 
the Secretary. He deeply believed that we had a responsibility 
to make this determination once we were able to accumulate the 
evidence. He drove it. I would like to say that he drove it----
    Mr. Meadows. Well----
    Ambassador Saperstein [continuing]. Here and made sure that 
it happened. And I know it took longer than others would have 
wanted, including the Secretary, but he felt he had to meet the 
legal standard, and the second he did, he moved to make it 
public.
    Mr. Meadows. Well, if you would please pass along, if it 
doesn't hurt him politically, my appreciation and, certainly, 
kudos to him.
    And I will yield back.
    I have to run. We will be monitoring this, and I will be 
back.
    Ambassador Saperstein. I look forward to working with you.
    Mr. Meadows. All right. Thank you.
    Mr. Smith. Mr. Meadows, thank you very much.
    And, Ambassador, a couple of questions.
    First, when Secretary of State John Kerry made his 
designation, he said, ``In my judgment''--and then he singled 
out the Shia, Yazidis, and the Christians. If that could be 
further delineated for this subcommittee, exactly--does that 
mean the entire government now, the administration, the U.S. 
Government made that? Or was it a Secretary of State's judgment 
call? Is there any difference between the two?
    And so the definition of ``genocide,'' its legal and moral 
implications--what are the legal implications? What are the 
moral implications?
    I know what it took to get there, because I was part of 
that process as well. My first hearing on genocide against 
Christians was 3 years ago in this room. And we heard from a 
number of NGOs who were almost bitter with how there was a 
looking askance by the administration. We had an administration 
witness who kept saying, ``Let me take back that''--because 
they raised all of these specific instances of what can only be 
construed as a genocidal series of acts--``Let me get back to 
you'' with, what that was all about. There was seemingly a lack 
of understanding, and I found it appalling, frankly.
    But we are here now. Legal and moral implications?
    And, again, when the Secretary said that, is that for 
Obama, for the Vice President, for everybody in the 
administration?
    Ambassador Saperstein. First, the delay in doing this was a 
matter of the legal definition. The functional part of it, from 
the moment that we mobilized those 60 countries to intervene to 
protect the Yazidi population on Mount Sinjar, we had been 
acting as though these were crimes against humanity. Both the 
President and the Secretary used language about potential 
genocides if we don't stop it, et cetera, here.
    So we acted from the very beginning, as I said, in the 
standard we would have had we declared genocide. And the truth 
is we have been acting more forcefully than we did in other 
places where we did declare that there was genocide happening 
here, and we did from the very beginning.
    This was the Secretary's determination. He is charged to 
make a determination. As he indicated, ultimately, there is his 
sense of the legal criteria on which he made his determination 
about genocide.
    In terms of criminal responsibility for it, that will be 
done in a court, in international courts. And much of the work 
we are doing about protecting these sites and the evidence is 
aimed at being able to have accountability in either Iraqi 
courts or international courts on these issues.
    So, that is a very important piece of this, but it is the 
Secretary's determination, as the Secretary, that has always 
been the standard that we used.
    Mr. Smith. I say that because, Ambassador, after Colin 
Powell made his designation on Sudan, there was a whole 
backstory about how it really doesn't matter, it doesn't bind 
the U.S. Government to taking any certain actions, and we heard 
that that kind of dialogue may be going on at the State 
Department. I certainly hope it wasn't.
    Ambassador Saperstein. I am pushing the envelope here about 
what I am----
    Mr. Smith. Okay.
    Ambassador Saperstein [continuing]. About my own clarity on 
this. It is----
    Mr. Smith. I am not questioning your clarity.
    Ambassador Saperstein. It is my understanding that that 
standard actually still holds. In other words, the United 
States Government did not feel that their legal obligation to 
act under the genocide treaty, as adopted and ratified by the 
United States Senate, legally compelled them to do any 
particular thing at that time. I think that has always been the 
standard of our legal interpretation.
    What the Secretary believed was, even before the 
designation, where we see crimes against humanity, where we see 
a potential genocide, we have a moral obligation to act. That 
was President Obama's position. It was Secretary Kerry's 
position. It was their justification for why we intervened at 
Mount Sinjar with the Yazidi crisis. It was not because we felt 
legally there was an obligation to act under the genocide 
treaty that was binding on the United States, but in terms of 
our national interests, our national values, and our moral 
responsibility, we had an obligation to act.
    Mr. Smith. Let me ask you whether or not the administration 
is seriously considering, and your office perhaps encouraging 
this, that a P-2 designation be made so that those who are 
victims of genocide are processed expeditiously.
    Right now, we look at the numbers--and we asked for them 
from the Congressional Research Service--and the numbers of 
Syrian Christians admitted in fiscal year 2015 was 1.7 percent, 
and, so far, as of April 30, it was \2/10\ of 1 percent who 
have gotten processed and have come here to the United States.
    And, it is almost as if--and we have heard from experts the 
difficulty of Christians--the UNHCR, very often under their 
auspices, it is very hard to get processed there. I had a 
series of hearings on the refugees' side of it last year, and 
Anne Richard testified and raised all of these issues in 
September with PRM and many others, that if we don't actively 
look for now what are the victims of genocide, we won't find 
them.
    And I wonder if your office is fully integrated in working 
with PRM and the others to make sure that that happens. We have 
to go find these people. They are fearful, one, of having left. 
Some do stay in-country. CRS backs that up, too, that some fear 
that they have to stay as IDPs. But once they do want to come 
and emigrate, they don't have a meaningful way to get from 
there to here. P-2 would help that.
    Ambassador Saperstein. It is my--again, I think you have 
conveyed that; I will continue to convey that. Anne Richard's 
PRM would be the appropriate people to go into detail.
    Just a couple of quick points on this.
    Many refugees are not in camps. That is particularly true 
of Christian refugees. Many other refugees, including Muslim 
refugees, are in various host communities, both in the KRG, in 
Lebanon, in Jordan, and other places, as well here. So there is 
a need to reach these people, but UNHCR--and I saw in this my 
visit to their central regional operations in Thailand--they 
are very used to reaching out into other communities and 
actually have developed a fairly good system of doing that, and 
so have we.
    I understand--I hope I am correct on this--that we are now 
opening an operation in Erbil at our consulate that will allow 
people to apply in-country under certain limited circumstances. 
Again, the details you could get from the PRM or Iraq desk 
people on this here.
    I would remind us all that the percentage of people who 
have come from Iraq, of the 120,000-plus people who have come 
from Iraq that are minorities, almost all Christian, is 40 
percent at this point. So you have a significant Christian 
population.
    It depends on who applies here. As I understand that, the 
percentage of people receiving the visas who happen to be 
Christian--and these are done by estimates that are not records 
PRM or UNHCR keep. They don't keep records about religious 
background. Everything is based on individual need of the 
person. But those groups who do, my understanding is that it is 
approximately the same percentage received as have applied for 
these visas.
    And there are increasingly rigorous efforts to reach people 
where they are, outside the camps, in the host communities. In 
some ways, it is not difficult, because when they go to host 
communities, the Christian population, they end up affiliating 
with churches there, and there is a network and system to get 
word out through these.
    So there has been progress made on that. And, again, you 
can get the details from PRM.
    Mr. Smith. Well, just for the record, the UNHCR does have 
on its refugee resettlement form religion. And the numbers that 
we have--again, we asked the Congressional Research Service for 
their latest numbers--Christians in fiscal year 2016, 4; 
Muslim, 23; Muslim Shiite, 17; Muslim Sunni, 1,675; Yazidi, 10; 
and other, 7. So there is a----
    Ambassador Saperstein. Is that of the people applied or 
received?
    Mr. Smith. These are received.
    So the problem--UNHCR does have a--but the problem is, as 
well, the UNHCR doesn't have access to these people, because in 
the camps--this is why I think the prioritization of those on 
the genocide designation declaration--I mean, the 
prioritization has to be, like, on steroids in order to go find 
them, make sure that they are being helped. And I----
    Ambassador Saperstein. Is there a difference, Mr. Chairman, 
between the percentage of people who apply and receive?
    Mr. Smith. This is from Syria. It doesn't have a--at least 
the numbers we have--we will look at it, but----
    Ambassador Saperstein. It would be interesting to----
    Mr. Smith. But, again, the end game, well, how do you 
complete the loop, who actually gets here? Four. And it is not 
very many.
    Ambassador Saperstein. It is my understanding--again, PRM 
can talk about this.
    Mr. Smith. Yeah.
    Ambassador Saperstein. It is my understanding that there 
are vigorous efforts both by UNHCR and by our own refugee 
people to reach people where they are. And that includes in the 
host communities there and----
    Mr. Smith. Well, on that very point--and we will be doing 
another PRM hearing. But, again, just as recently as our last 
hearing, which was in April, each of our witnesses and 
especially the Knights of Columbus, Carl Anderson, made it very 
clear--and they just did a fact-finding trip--that the food 
stuffs, the medicines were not getting to the Christians. It 
was almost like, they are not only at the bottom of the totem 
pole, they are just--they just don't get it.
    And he made the strongest admonishment imaginable, that 
people will die, women will be sicker, particularly those who 
are pregnant and at higher risk of malnutrition and stunting 
for their children, unless the diocese and other faith-based 
institutions are further prioritized.
    And we have asked the administration, please, do that. And, 
you know, I know that is not your, you know, primary focus, but 
please----
    Ambassador Saperstein. We share those concerns, and we 
understand. We think that faith-based community has particular 
expertise and particular access to these populations. They are 
dealt with, as other groups are, based on their ability to do 
it. I think that ability is significant, and I think that is 
the way they should be treated, based on their ability to 
achieve what has to be done. And you have given the 
justification for why they are an effective partner in this 
work.
    Mr. Smith. Before I yield to my good friend Dana 
Rohrabacher, Chairman Rohrabacher----
    Ambassador Saperstein. Indeed.
    Mr. Smith [continuing]. Very quickly, a couple of very, 
very strong concerns. I chair the Congressional-Executive 
Commission on China. I have chaired 60 hearings on Chinese 
rights abuses. I was just there with two of my staff members, 
gave a major speech on human rights in Shanghai, at NYU-
Shanghai, just in February, after 7 years of not being able to 
get a visa.
    My point and concern is, under Xi Jinping, the sinofication 
of religion, just like the draft law on NGOs, is a further 
tightening, the likes of which I haven't seen. I have been in 
Congress 36 years. There is an aggressive move to decapitate 
all faiths--Tibetan Muslims, Muslim Uyghurs, and, of course, 
Christians, even part of the officially recognized church--this 
sinofication, a new rubric under which he has put this.
    We had a hearing just a few weeks ago on torture in China. 
And, of course, the U.N. has singled out China as an egregious 
violator on torture. Twenty years ago, in this room, we heard 
from Palden Gyatso, a Buddhist who couldn't even get into 
Rayburn--you remember that hearing--couldn't even get into 
Rayburn because he brought in the implements of--cattle prods 
that were being used against him and others. Horrible, horrible 
torture.
    It has gotten worse. We just heard from Golog Jigme, who 
talked about the torture chair--the ``tiger chair,'' which is a 
torture chair, and said, increasingly, they are using it 
against people of faith, particularly Buddhists, Tibetans, 
Christians, and Falun Gong.
    And our President, in my humble opinion, has not raised 
these issues--you have, but at the highest level, Xi Jinping to 
Obama and back--have not raised these in a way that says there 
will be real-world consequences if you continue torturing and 
maltreating people of faith.
    China is in a race to the bottom with North Korea. We all 
know it. It is getting worse. It is a CPC country, as it has 
been from day one. But I would hope that there would be a 
ratcheted-up effort to say to China: Stop it.
    I have never seen anything like it. When he went into 
detail, as did our other witnesses, about torture in China and 
explained how this chair, this tiger chair, just is an 
excruciating implement of torture.
    So please convey that and----
    Ambassador Saperstein. I truly will.
    And I will say again--that is one of the reasons I address 
the issue of sinofication in my testimony here. We were very 
disappointed that the conference on religion that they had, 
which we had hoped might show some progress, instead focused on 
this idea of the sinofication of religion, and that was in 
terms of the message of President Xi. And we hope there will be 
a significant change in that.
    I will say, as I did in my testimony, that Secretary Kerry 
was particularly strong at the seed dialogue that took place 
just a couple of weeks ago, particularly strong in speaking out 
about the violations of religious freedom. It was a very strong 
message and equally so on the broader human rights agenda. So 
the kind of disappointment, I think, and impatience for 
improvements in human rights that you have expressed I believe 
was expressed quite strongly by the Secretary.
    Mr. Smith. My last question--I have a dozen, but I will 
submit the rest for the record--before going again to Dana.
    Ambassador Saperstein. Please.
    Mr. Smith. On Vietnam. Four times, the Congress has passed 
my bill, called the Vietnam Human Rights Act.
    Ambassador Saperstein. Uh-huh.
    Mr. Smith. Four times, it got over to the Senate, beginning 
in 2004. Secretary Kerry put a hold on it, and it never--it set 
benchmarks, particularly on religious freedom, that could be 
achieved, and it froze, did not eliminate, froze any additional 
increases in foreign aid, which could be a great lever for us 
to use. It is pending here now again here in the House, but 
four times, four and 0. The Senate never even got a vote on it.
    I have been to Vietnam many times, like you, and I am glad, 
you know, you have raised those issues so strongly. But, 
please, Vietnam should be a CPC.
    I remember when John Hanford, right as the bilateral trade 
agreement was being negotiated, thought that it would be a 
great carrot--former Ambassador-at-Large John Hanford--to take 
Vietnam off the CPC list, in the hopes--and it was a hope. He 
had deliverables that he thought they were going to provide. 
They made all kinds of noise that they were going to change the 
registration agreements. I went to Hanoi, Ho Chi Minh City, and 
Hue, met with 60 different religious leaders while I was there, 
and government people. Everyone was saying, ``This could be the 
beginning. We are on the precipice of real reform.'' As soon as 
they got bilateral trade, they severed any kind of thought 
about human rights adherence and went, again, right back into 
the repression.
    I fear we are making that same mistake now. The Commission 
has made a recommendation for seven countries that they truly 
believe should be on the CPC list. You are right; anytime you 
want to make that designation, you are legally authorized to do 
so. The ones that are listed all ought to be on there, but 
Vietnam, I would put exclamation points behind it. Because they 
got away with murder when they got off of that list, because 
they reverted right back to the old ways.
    The people who signed Bloc 8406, a beautiful manifesto on 
human rights, one by one were hunted down and thrown into 
prison, including many of the people that I met with. Father Ly 
got rearrested. Now he has been out again, but he has been so 
hurt and damaged by their cruelty that they probably were 
fearful he would die while being incarcerated.
    So Vietnam has to be on that list.
    Finally, before President Obama made his trip--and we talk 
about gun control. When we lift a lethal arms embargo on a 
communist dictatorship that cruelly mistreats its people, what 
kind of background check do we do on the communist dictatorship 
as they are handing out whatever it is that we end up selling 
to Vietnam? To me, that is an egregious mistake that was made 
by the administration without conditionality.
    We had Mrs. Vu, Nguyen Van Dai's wife, testify here. You 
might have met with her when she was here. Her husband, who I 
first met in 2005 in Hanoi defending Christians and others, a 
great human rights defender, a lawyer, a great lawyer, he is 
back in prison. After 4 years before in prison, 4 under House 
arrest, he is back in. He is not out.
    We begged the President to raise his case by name in-
country and say, ``You have to let him go.'' We did it with 
Natan Sharansky. We did it with Soviet Jews, as you know, 
because we worked together so strongly on that. When I got 
elected in 1980 and my first trip was to the Soviet Union on 
behalf of Soviet Jews, we always had lists and we always got 
people out. And now Nguyen Van Dai is back in prison, and I am 
just baffled by it.
    So please put them on the CPC list.
    Ambassador Saperstein. I also will convey that.
    Just one word on Vietnam. They are writing a new 
comprehensive law. There will be two benchmarks. One, does the 
law makes significant improvements?
    In the various iterations of the bill, there have been some 
significant improvements, not enough to have the kind of 
minimally robust religious freedom that is necessary, but they 
are moving, in terms of the law, in a very positive direction.
    Now, until the law is implemented, it could be reversed, 
those gains could be lost. But if it continues in that 
direction, that will be one benchmark for us. The second 
benchmark is will it actually change anything on this ground 
and will it be implemented.
    But, because the new law is coming here, let's continue to 
communicate on that together. And the second that law is done, 
we ought to have a hearing just on that to talk about how that 
law has met the international obligations of Vietnam and what 
the implications of the law will be.
    Right now, we are encouraged by what we are seeing, but, in 
the end, it is only the final product that really matters, and 
will it be implemented. There are lots of promises in 
constitutions all across the world about freedom of religion. 
What, in real life, is the experience of people?
    We have heard, unlike what you were talking about where 
people said, well, do this because it will be better, we are 
hearing real improvements on the ground in many of the areas of 
the country right now. And that is encouraging to us, but what 
matters is what the law finally says and how it is implemented. 
And we want to work with this committee----
    Mr. Smith. I appreciate that.
    Ambassador Saperstein [continuing]. To judge that and 
assess that when it happens.
    Mr. Smith. I absolutely agree, but I would also add a note 
of caution. Yogi Berra once said, ``It's deja vu all over 
again.'' This looks like a carbon-copy repeat of what they did 
during the bilateral agreement. There was great hope, 
particularly among the religious communities, many of whom 
surfaced themselves and went from underground to above ground, 
only to be----
    Ambassador Saperstein. Here, we will be able to judge here. 
So let's take a good look at that when----
    Mr. Smith. Chairman Rohrabacher?
    Thank you very much.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman.
    And let me again express my appreciation to Chairman Smith 
for the dedication that he has. Very few Members are willing to 
give up a couple hours on the breakaway day to try to strike a 
blow for freedom but also to give hope to people throughout the 
world that we still do have a high standard when it comes to 
human rights and especially to freedom of religion.
    Ambassador Saperstein. Mr. Rohrabacher, I see quite 
evidently you are one of those people, and thank you.
    Mr. Rohrabacher. Well, not so, because after I get done, I 
will have to run out and catch my airplane to be with my family 
in California.
    If you would indulge me, one thing, a story. And years ago, 
a lot of people know that I was Ronald Reagan's speechwriter in 
the White House. And there was a fellow named Natan Sharansky, 
who is now in Israel because he got out, but, at that time, 
Natan Sharansky was a political prisoner in Russia, and he was 
in the Gulag. And we all knew about him, and we tried to get as 
much attention forced in that direction. He became a hero when 
he refused to recant public statements he had made saying that 
Russia was repressing not only the Jews but the rest of their 
citizens. And he refused to sign off on that, and so they kept 
him in the Gulag.
    And we knew about that in the White House, and we knew he 
was there suffering. And then he was freed. We traded a spy for 
him. We crossed that bridge over in Berlin, I guess, and I 
would say we got a saint and they got the devil. So, anyway, we 
were very pleased with that.
    About a week later, Sharansky ended up at the White House, 
meeting with President Reagan. And when he went in to meet with 
President Reagan, he came out, and there was an area there in 
the White House where someone who just met with the President 
can talk to the reporters and we can all see it inside our 
various offices. And speechwriters were all tuned in. He had 
been one of our cause celebre that we were trying to help 
during those years.
    And they asked him, well, what did you say to President 
Reagan? And he said, well, I told him the most important thing 
was don't tone down your speeches. Now, you can imagine how the 
speechwriters felt about that. Champagne bottles were out, 
celebrating. Now we had this heroic world figure saying, don't 
tone down your speeches, Ronald Reagan.
    Well, what happened is, of course--they said, well, why is 
that? And he said, well, I reminded the President that when I 
was at my bottommost darkest part of my incarceration, I was 
being kept there in basically a dungeon and with no contact 
except one person came in and gave me my meals. And someone, 
when they gave him his meals, had smuggled a piece of paper to 
him, and on that paper on his meals was written, ``The 
President of the United States has just called the Soviet Union 
an evil empire.''
    And he said, when I knew that the President of the United 
States understood that and was willing to speak out to the 
world and say that, I knew there was hope for me. So we have to 
understand, when we speak with a loud voice, there are people--
not just hopefully the jailers, but the people inside will be 
given hope as well.
    Quite frankly, when you mentioned--and I just would be very 
frank with you. When you talked about how they are rewriting 
this law in Vietnam, that did not give me hope. Vietnam is a 
country that does not believe in the rule of law. They don't 
have an independent court system in Vietnam. They don't really 
have a system of government that is elected and, thus, has a 
legal obligation to the people.
    The laws that were the most restrictive on government and 
restricting whatever oppression could happen among the people 
during the Cold War, do you know what that--it was the Russian 
Constitution. The Constitution of the Soviet Union had every 
protection in it. It meant nothing. Zero.
    And I am afraid in Vietnam they are going to have to prove 
it to us. I spent some time there, back in 1969, and I actually 
was up with some Montagnard tribesmen up in the central 
Highlands. And do you know what is happening to the 
mountaineers today? They have been converted to--Chris, they 
have been converted to Christianity. They are actually 
Evangelicals more than Catholics. And they are being severely 
repressed now.
    And I hope what we are doing gives them a sense of hope 
that we have not forgotten them. And it is in Vietnam's 
interest to work with us now, so let's make sure we reach out.
    And Russia came to a point where the Soviet Union could 
work with us and now--and then to Russia, I notice that there 
is one area that Jehovah's Witnesses are now facing some 
problems. But I have been in and out of Moscow and Russia a 
number of times, and one thing that really has struck me is 
that they have almost total freedom of religion. I have met 
with the Mormons, the Catholics, the Orthodox, the Baptists. I 
have met with all of them, and none of them had any complaints. 
What a great achievement that is over--and, by the way, is also 
the head rabbi in Moscow. What a great achievement that is, as 
compared to the time when a paper was smuggled to a Jewish 
prisoner and gave him hope.
    So I am not quite as worried about Russia. We have to make 
sure they understand we are watching.
    But what really is upsetting to me about what the 
administration, perhaps what your job is and what I am worried 
about--and Representative Smith has already raised that--and 
that is we are not just in a world where people are being 
persecuted for their faith, we live in a world today where 
there is genocide going on, targeting people for their faith, 
and heinous acts of genocide against people simply for their 
religious convictions, and especially in the Christians and 
Yazidis in these countries.
    Now, I have a bill, H.R. 4017. It has not passed. The bill 
that we passed in Congress was a sense of the House, a 
congressional resolution that did not have--it is a sense of 
Congress that this is what should happen, that there should be 
priorities given to people who are targets of genocide.
    We thought that that fact that the House had expressed 
that, the sense of the House has been expressed, that maybe we 
would see something on the executive side of this equation. 
And, as Chairman Smith has just pointed out, it is not 
happening, when you have four Christians and thousands of 
Muslims coming into this country on a refugee or immigrant 
status from that very same country and area that we said, 
please, give priority to the people who are being targeted for 
genocide. This is totally unacceptable, and it indicates that 
the administration isn't listening. I would hope that you take 
advantage of the bully pulpit.
    I will tell you, there were a number of times inside the 
White House when I worked there, I raised holy hell about 
things. No one on the outside knew I was raising holy hell 
about this or that. And I hope that behind the scenes--I don't 
expect you to say anything bad about your boss, but at least we 
expect you to raise holy hell behind the scenes to make sure 
that we are doing what is right and that it is real. It is not 
just waiting for them to rewrite the law or something like 
that.
    So, please, go right ahead.
    Ambassador Saperstein. Well, I guess if any office should 
raise holy hell, it is the religious freedom office.
    A few quick responses.
    On your last point, I think right before you came in, I do 
want to remind you--I understand and will convey exactly the 
concerns that have been expressed here on this issue. I do want 
to remind you, in Iraq, 127,000 refugees have come in, 40 
percent of them are minorities, almost all Christian, a 
significant number, because that is the people who have 
applied.
    If you remember, in Syria, many of the minority communities 
were in areas controlled by the government, and the government, 
before the civil war began, had been somewhat protective of 
those minority communities. They chose not to flee until the 
fighting came to those areas. So they were late into the 
displaced camps, they were late into the refugee situation, et 
cetera.
    It is my understanding--I'll say it again--that the 
percentage of people who have been given refugee status 
approximate the percentage of people who have applied. That is 
my understanding. Again, you would have to have PRM in to see 
about that.
    We have opened up now a facility in Lebanon that will help 
reach the Christians as well as others in Lebanon, but a high 
percentage went to Lebanon from the Christian communities. We 
have opened up a facility there. We have opened up a facility 
at Erbil that will be able to accommodate those under 
particular circumstances, including some of the things I think 
you are alluding to, et cetera.
    Mr. Rohrabacher. So let me be very clear about what you are 
saying, because what you are saying is not in sync with what we 
are talking about.
    Ambassador Saperstein. Help me out.
    Mr. Rohrabacher. You do not expect to have the percentage 
of Christians who have applied to be the percentage who have 
been granted the status and been permitted to come here. The 
Christians and the Yazidis have been targeted for genocide. We 
expect them to far exceed those who have not been targeted for 
genocide.
    I have visited camps where have you lots of Muslims coming 
out of there. That is fine. I am not saying we should be anti-
Muslim. The fact is, however, those Muslims haven't been 
targeted for genocide. A lot of them are leaving because there 
is chaos. A lot of them are leaving because they don't have a 
job and they really could actually do better elsewhere.
    The Christians and the Yazidis, who are targeted for 
genocide, should be far above how many----
    Ambassador Saperstein. Mr. Rohrabacher, I appreciate that. 
I understand clearly what you are saying here. I am not playing 
games about words here, so please hear me for what I am saying 
here.
    PRM does not, as I understand it, keep track of the 
religious identity of the people they help. The question is do 
they meet the criteria and what is the need that they have. 
People who, whatever their religion, people who have been 
victimized by the kind of persecution is attendant to crimes 
again humanity and genocide are exactly the kind of people who 
would meet the criteria and get in. So the fact that they don't 
call them Christians or whatever, they are the--but that 
percentage of people on the Syria side of it--and Iraq was 
different. That is why you have such a high percentage, way out 
of proportion in terms of more people getting the visas than 
their percentage of the population, way out of the proportion. 
Because they were amongst the first displaced and the first to 
apply, et cetera. It was a different pattern in Syria.
    But, again, let me stop there on this because you really 
should have the PRM people in to talk about this. This is 
really in their bailiwick.
    Very quickly, Natan Sharansky, one of the great heroes. 
Congress was phenomenal about the Soviet Jewry movement and 
about Natan Sharansky personally. He is a dear friend who I had 
the opportunity before taking this position to work with very, 
very closely on common concerns, and----
    Mr. Rohrabacher. Mr. Ambassador--and then I will close off. 
I am sorry if I am taking too much time, Chris.
    Just to close off the Natan Sharansky story, and that is--
so he had basically said how the President's speech had given 
him hope and et cetera. Well, a couple days later, and how we 
speechwriters felt so good about that, a couple days later 
there was a party for him at the Israeli Embassy. It was 
mobbed, and I had been invited. And as he was, like--you know, 
he was the hero of the day. And he is coming down these stairs, 
surrounded by people. As you know, he is a short guy, so it is 
sort of like a hole in the doughnut there. And so, anyway, he 
gets down to the bottom. There is a huge crowd there. And I see 
him looking through the crowd, and somebody is pointing over to 
me. And he walks right through this crowd--and everybody wants 
to talk to him--he walks right through the crowd, went up to 
me, and he looks at me in my face and says, they tell me that 
you write speeches for President Reagan. And I said, well, yes, 
I do. And he said, I have often wondered who you are.
    And, you know, there are people out there suffering----
    Ambassador Saperstein. That is a very moving story.
    Mr. Rohrabacher [continuing]. And they know that somebody 
there is going to be their spokesman. That is you. We know 
someone is there----
    Ambassador Saperstein. I have personally heard him tell the 
same story that you have talked about. He really believes the 
importance of what is said, which I will get to in just a 
moment here.
    I just returned not too long ago, a matter of weeks ago, 
from the central Highlands in Vietnam.
    Mr. Rohrabacher. Really?
    Ambassador Saperstein. It is a more difficult situation 
there. We do not hear the same messages. On the other hand, on 
the other hand, you are seeing an enormous growth of the 
Evangelical community, somewhat of the Catholic community. That 
wouldn't have happened 20 years ago. It wouldn't have been 
possible 20 years ago.
    Mr. Rohrabacher. Right.
    Ambassador Saperstein. It is an obvious point, but I would 
comment on, even there, compared to what was, there has been 
some improvement here.
    For those who are victimized, for those who are harassed by 
the police, for those who are in jail and are being physically 
persecuted there, it may not feel different at all. But, at a 
macro level, what we hear from people does show a positive 
direction.
    But, again, the test will be, what does the actual law--not 
the promise in the constitution--the laws say, and how it is 
implemented? And we said to the Vietnamese over and over again, 
you have a chance to really make a profound difference.
    And I am glad to come in and brief you on exactly what some 
of----
    Mr. Rohrabacher. Okay. Great.
    Ambassador Saperstein [continuing]. Those changes are. I 
think they would be fascinating for you.
    Mr. Rohrabacher. Did you go to Pleiku? In the Highlands, 
did you go to Pleiku?
    Ambassador Saperstein. In that area, yes.
    Mr. Rohrabacher. And where did you stay?
    Ambassador Saperstein. Oh, I can't remember. I can picture 
the hotel. I don't----
    Mr. Rohrabacher. It was a hotel? Yeah. There is an old 
French fort there that is----
    Ambassador Saperstein. Ah. No, that was not where we were.
    Mr. Rohrabacher. Okay. Anyway.
    Ambassador Saperstein. Finally, I would just make this 
obvious point. And I know my colleagues have been waiting 
patiently here. I would just make this point. What Natan 
Sharansky said to you about what it means for people there is 
exactly why our report names prominent political prisoners of 
conscience, religious/political prisoners of conscience, lifts 
up their cases, lifts up their name.
    When I travel to a country, almost every person that you 
have named, Mr. Chairman, I have raised directly with the 
ministry of justice, with the security ministry, with the 
religious ministry, et cetera. We want the government to know 
we are watching the plight of these people and are advocating 
for their fair treatment and their freedom, and we lift up 
their public voices.
    It is why I went to that courtroom in Khartoum, where I saw 
the two most prominent religious prisoners of conscience 
released. I don't know whether our presence made a difference, 
but they and their lawyers, I think, believed that it did. I 
hear all the charges dropped here.
    We will continue to lift up and put a human face on the 
suffering of people who face religious discrimination and 
persecution everywhere in the world. And we won't stop until 
the freedom which their inherent right is a reality in their 
lives.
    Mr. Rohrabacher. Thank you, Mr. Ambassador.
    I yield back.
    Mr. Smith. Thank you very much.
    And, Ambassador Saperstein, thank you very much. And, as 
you go, again, I do hope you will look at USCIRF's seven 
recommendations. Because----
    Ambassador Saperstein. You know----
    Mr. Smith [continuing]. On Pakistan, the Ahmadiyya, the 
Shia, the Hindus, the Christians. I remember being with you 
when Minister Bhatti was----
    Ambassador Saperstein. Exactly.
    Mr. Smith [continuing]. Horribly gunned down.
    Ambassador Saperstein. Yeah.
    Mr. Smith. We were all in mourning. Pakistan needs to get 
that designation and now.
    Ambassador Saperstein. Every year, at the highest levels, 
the USCIRF designation recommendations are reviewed. We go back 
and review all of them in terms of providing information to the 
Secretary for his decisions, and they are taken quite seriously 
by the people over there.
    I mentioned I have been to a number of the CPCs; even more 
so, I have been to countries that are on the list of the 
recommended CPCs.
    Mr. Smith. But, again, before your arrival----
    Ambassador Saperstein. So we really do take it very, very 
seriously.
    Mr. Smith. Before your arrival, designations, which are 
supposed to be at least annual, were not happening. And Dr. 
George had testified at a previous hearing I had and just rang 
the alarm bell and said, where are the designations?
    Ambassador Saperstein. Well, now we are not even waiting 
for a yearly designation. Tajikistan was put on as soon as we 
made the determination. And it was the Secretary who conveyed 
that message personally about our concerns on their status 
here.
    I want to make it a more robust process here, so I share 
those concerns. I said that in my confirmation hearing. And I 
hope we are making noticeable improvement on this.
    Mr. Smith. Thank you so much for your testimony, and thank 
you for your exemplary service.
    I would like to now welcome to the witness table Dr. Robert 
George, who is McCormick professor of jurisprudence and 
director of the James Madison Program in American Ideals and 
Institutions at Princeton University and formerly the chairman 
of the--and just left as chairman of the U.S. Commission on 
International Religious Freedom.
    He also has served on the President's Council on Bioethics 
and as a Presidential appointee to the United States Commission 
on Civil Rights. He has also served on UNESCO's World 
Commission on the Ethics of Scientific Knowledge and 
Technology.
    He is the author of several books and has had his work 
published widely in academic journals. He is a regular 
commentator on major media outlets and has testified before 
this subcommittee and so many others in the House and Senate 
for many years.
    We will then hear from Dr. Zuhdi Jasser, who is the founder 
and president of the American Islamic Forum for Democracy. He 
is also a former vice-chair of the U.S. Commission on 
International Religious Freedom.
    Dr. Jasser is a first-generation American Muslim whose 
parents fled the oppressive Ba'athist regime of Syria. He 
earned his medical degree on a U.S. Navy scholarship, served 11 
years in the United States Navy. Dr. Jasser has testified again 
before Congress.
    And I thank you both for your patience, especially with 
those long votes.
    But the floor is yours, Dr. George.

 STATEMENT OF ROBERT P. GEORGE, PH.D., MCCORMICK PROFESSOR OF 
  JURISPRUDENCE, PRINCETON UNIVERSITY (FORMER CHAIRMAN, U.S. 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM)

    Mr. George. I have been up here so often, you would think I 
would know where the ``talk'' button is. But I do want to thank 
you, Mr. Chairman, for the opportunity to appear, this time in 
my capacity as a private citizen. As you noted, my term on the 
Commission and as chairman of the Commission ended in May. It 
was a great honor to serve on the Commission and as its 
chairman.
    And I thank the Congress for having the wisdom and the 
foresight to create the U.S. Commission on International 
Religious Freedom, which does profoundly important work for the 
country and for persecuted people and prisoners of conscience 
abroad. I hope that, in the future, Congress will see fit to 
extend the life of the Commission, as it did recently, and to 
provide the Commission with the resources that it needs to do 
the very important work, assisting you, that the Commission 
does.
    If I may say personally, Representative Smith, it is always 
an honor to testify before you, most of all because of your 
profound and heroic witness to human rights and especially to 
religious freedom. You are an inspiration to those of us who 
have been in the movement.
    It is also a great honor--it always is--to testify at a 
hearing with my great friend, Ambassador David Saperstein. 
David Saperstein was a dedicated champion of religious liberty 
long before he took up his present duties as our chief 
spokesman, chief advocate within the administration as the 
Ambassador-at-Large for International Religious Freedom, and I 
am grateful for all the work that David has done. In his 
modesty, he kicks all the credit upstairs, but the reality is, 
whenever something good happens on the religious freedom front, 
something good comes out of the State Department, David 
Saperstein's fingerprints are all over it. And try as he might 
to try to hide those fingerprints, they are very easy to 
discern.
    I am delighted to be testifying along with my great friend 
and colleague, with whom I served 4 years on the Commission, 
Zuhdi Jasser. Zuhdi will provide, Mr. Chairman, some details 
about the countries that have been in our focus. I am going to 
provide some general observations.
    First, the so-called secularization thesis, what 
sociologists have for 30 or 40 years called the secularization 
thesis--namely, the idea that, as modern life advances, as 
modernity advances, religion retreats--is dead.
    USCIRF's mandate, making policy recommendations to the 
President, the Secretary of State, and the Congress about 
violations of religious freedom abroad, was, I think, regarded 
in some circles as not something that will be of lasting 
importance because of belief in the secularization thesis. But 
if modern events have proved anything, contemporary events have 
proved anything, it is certainly that religion is, remains, and 
will be into the future highly salient in people's lives and, 
therefore, in our foreign policy and in foreign affairs.
    World events have, in short, exploded the so-called 
secularization thesis. As societies modernize, religion has not 
lost its authority, and secular institutions have not achieved 
the cultural, socioeconomic, and political supremacy that 
secularization theory predicted. Facts on the ground refute 
secularization's supposed inevitability. Religion remains 
central in people's hearts and minds and, thus, in their self-
understandings and motivations. It continues to shape cultures 
and the internal politics and foreign policy goals of nations. 
My written testimony touches on Burma, China, and Iran in this 
connection, but I could have noted many other nations, as well.
    Secondly, why religious freedom? Well, if you don't get 
religious freedom right, you don't get foreign policy right at 
all. The secularization thesis' well-deserved repudiation 
should reenforce religious freedom's importance and its 
centrality in U.S. foreign policy. But I want to submit 
something further, and that is that, if religious freedom 
advocacy is left out of the equation, U.S. foreign policy 
objectives, including promoting human rights, promoting 
stability, promoting democracy, promoting economic well-being 
and women's rights, will suffer.
    My written testimony highlights India and Pakistan, in 
particular, two different and historically hostile neighbors 
that the U.S. seeks to engage--notes these countries on that 
issue. But this engagement cannot succeed without dealing with 
the roles of religion, religious freedom, and religious freedom 
violations.
    Third, the importance of conscience. As a conscience right, 
religious freedom is more than merely the right to worship, 
more than merely the right to pray in one's mosque or synagogue 
or church or temple or around the dinner table or on one's 
knees at bedtime. It is much more that that. It is the right to 
follow one's own conscience on matters of faith and belief 
wherever it leads so long as other people's rights and 
essential principles of public order are respected.
    That call to conscience includes rejecting belief in any 
religion. Unbelievers have the right to religious freedom, too, 
the right to their unbelief, the right not to believe. So 
religious freedom is not just the right of religious people, 
though it is certainly that; it is more than that. It is the 
right even of unbelievers. It is a universal human right, a 
right that all of us, as human, possess.
    Now, let me turn to two issues that are central to the 
right of religious freedom as a practical matter: First, 
repealing blasphemy laws, the need to repeal blasphemy laws in 
the nations that maintain and enforce them; and, second, 
standing up for prisoners of conscience around the globe.
    Blasphemy laws restrict the freedoms of religion and 
expression, thereby violating two of the most basic civil 
liberties and hallowed human rights and leading, in some cases, 
to the destabilization of societies. Blasphemy is ``the act of 
insulting or showing contempt or lack of reverence for God.'' 
And you can imagine how such a thing, blasphemy understood or 
defined in that way, can be abused and misused and exploited as 
a tool of persecution. Pakistan, where blasphemy carries the 
death penalty or life imprisonment, has more people sentenced 
to jail or death for blasphemy than any other country.
    And that is why I urge Congress to pass House Resolution 
290, introduced by Representative Pitts and Representative 
Jackson Lee, which calls for the global repeal of blasphemy 
laws. I would ask you, Chairman Smith, I would ask the Congress 
to prioritize the passage of that legislation. It is vitally 
important that Congress signals that blasphemy laws must go, 
that Congress signals its understanding that these laws are 
used for no reason other than persecuting minorities and that 
these laws are simply intolerable.
    Prisoners of conscience are people who are in prison for 
peacefully expressing their conscientiously held beliefs or 
their unbelief or for their mere identity, although they have 
neither used nor advocated violence. We must shine a light on 
them and the laws and policies that led to their imprisonment, 
and we need to hold the governments responsible for persecuting 
them accountable. While quiet diplomacy has its place, public 
inattention or public silence emboldens persecutors. Oppressive 
nations must be prodded publicly, and not merely by backdoor 
diplomacy, to protect their own people.
    I want to mention here publicly a recently released 
prisoner, Father Ly, for whom, Representative Smith, you have 
tirelessly advocated. We must remain vigilant about the 
conditions of his release and pay heed to the many others who 
remain in detention in Vietnam, where he was held, or 
elsewhere.
    Fourth, the role of civil society. As intermediaries 
between the state and individuals, civil society organizations 
and institutions undergird successful and stable democracies 
and, indeed, governments of all kinds.
    In unstable and authoritarian countries, the government 
controls and/or seeks to destroy the institutions of civil 
society, what Burke called the ``little platoons,'' reducing 
citizens, vested with God-given, fundamental rights independent 
of government, to mere subjects from whom governments' 
arbitrary hand grants or withholds at its pleasure mere 
privileges.
    Too many countries, including Russia and India, are 
shrinking and even closing civil society's space because these 
governments view civil society groups as threatening to their 
authority. They seek to ensure that there are no authority 
structures in society independent of government itself.
    Our Government should, in response to these efforts, 
vigorously support those groups, those organizations and 
institutions and associations comprising civil society.
    Fifth, and very importantly, the rise of non-state actors. 
When the International Religious Freedom Act became law back in 
1998, Congress was understandably and rightly focused on 
governments as abusers of religious freedom. And there were 
certainly plenty of them, and that remains true today, alas.
    But because non-state actors are now among the primary and 
worse perpetrators of egregious abuses, permitting our 
Government to designate these non-state actors as severe 
violators would both reflect reality, the new situation, the 
new facts on the ground, and also allow Washington to better 
engage the actual drivers of persecution.
    So, Representative Smith, I want to commend your proposed 
legislation, H.R. 1150, which includes this important measure. 
And the more swiftly the Congress acts and the President makes 
that law, the better off those who are fighting for religious 
freedom across the globe and, of course, the victims for whom 
we are fighting will be. It is important that this go through.
    Sixth, genocide refugees and internally displaced persons. 
Of course, Ambassador Saperstein has spoken to this in some 
length. Confronting genocide and protecting refugees and 
internally displaced persons are among today's top moral 
challenges.
    The hallmark of genocide is the intent to destroy a 
national, racial, ethnic, or religious group. The Commission on 
which I served until a few weeks ago called on the United 
States Government last December to designate the Christians, 
Yazidis, Shia, Turkmen, and Shabak, those communities of Iraq 
and Syria, as victims of genocide by ISIL. We pushed very hard.
    We also encouraged the United States and the international 
community to bear witness to these crimes and additionally 
designate genocide and crimes against humanity, whether those 
are committed by ISIL, by the Assad regime, or by others. It 
doesn't matter who the perps are, who the perpetrators are, and 
it doesn't matter who the victims are. What matters is, where 
genocide and crimes against humanity occur, they must be called 
out as such and designated as such as swiftly and unequivocally 
as possible.
    While we certainly welcomed Secretary Kerry's March 2016 
declaration that ISIL is responsible for genocide and we 
commend all who assisted in bringing the Secretary to that 
decision and announcement, we must do more. My written 
testimony for today includes additional recommendations.
    On refugees and internally displaced persons, the horrific 
refugee crisis worsened this year, with religion factoring into 
the worldwide humanitarian crisis, forcing literally millions 
to flee, including 3.3 million people in Iraq; more than 11 
million in Syria, the land of my own ancestry and, of course, 
the land where Zuhdi Jasser comes from; more than 2.2 million 
people in Nigeria; and about 1 million in the Central African 
Republic. In Burma, 120,000 Rohingya Muslims and at least 
100,000 Christians are internally displaced.
    A record number of refugees are attempting to cross the 
dangerous Mediterranean, seeking safe haven in Europe, as we 
all know from watching television. With unprecedented numbers 
forcibly displaced, many fleeing religious persecution or 
religious-based violence, USCIRF issued recommendations, 
included in my written testimony, recommendations for a 
generous policy of receiving refugees, prioritized, as Mr. 
Rohrabacher rightly urged, by vulnerability to the worst 
offenses--murder, rape, torture, enslavement.
    There is a widespread but false belief, one rooted in the 
thought of some 19th century German philosophers, I believe, 
figures like Hegel and Marx, that we can rely on history to 
produce justice in the long run, that history will inevitably 
move in the direction of moral progress, that everything will 
certainly work out all right in the end.
    But this view ignores the radical contingency of human 
affairs and the reality of human freedom. History considered as 
some sort of quasi-personal or super-personal force will not 
guarantee religious liberty or justice of any kind for all or 
for anyone. If liberty and justice are to prevail, it will 
require the free choices, determination, dedication, and 
courage of men and women, flesh-and-blood human beings, 
citizens, and statesmen.
    Victory is not guaranteed. History does not give us a 
promise of everything coming out all right in the end, not in 
the world of human affairs. Victory for human rights and for 
justice is not foreordained, it is not in the cards. But it is 
possible. The possibility of progress toward religious freedom 
and the securing of other fundamental human rights is in our 
hands and in the hands of our fellow citizens.
    Congress has a vital role to play, as does the executive 
branch, as do activists, faith communities, civil society 
groups, everyone who is willing to lend a hand and put a 
shoulder to the wheel. So let us here, to use Lincoln's phrase, 
highly resolve to turn the possibility of progress for 
religious liberty into reality.
    [The prepared statement of Mr. George follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Smith. Dr. George, thank you very much for that very 
eloquent statement, comments. And thank you for your leadership 
at the U.S. Commission for International Religious Freedom. It 
has been extraordinary. It has been incisive and decisive.
    I read the reports. I am one of those who really actually 
sits down and reads the reports that you proffer. They are 
well-written and well-thought-out, and I thank you so much for 
the gravitas that you have brought to that chairmanship.
    Mr. George. Thank you.
    Mr. Smith. I would like to now turn to Dr. Jasser.

STATEMENT OF M. ZUHDI JASSER, M.D., PRESIDENT, AMERICAN ISLAMIC 
  FORUM FOR DEMOCRACY (FORMER VICE-CHAIR, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM)

    Dr. Jasser. Thank you, Chairman Smith and distinguished 
subcommittee members, for holding this important hearing.
    My name is Zuhdi Jasser. I am president of the American 
Islamic Forum for Democracy. And, as you mentioned, I am here 
as a former commissioner and vice-chair of USCIRF and am 
testifying as a private citizen.
    Let me first tell you how much of an honor it has been to 
serve with Chairman George and the rest of the commissioners 
and an honor it is to follow Ambassador Saperstein and become 
his colleague on this Commission.
    And I have to tell you, I also want to thank Senator 
McConnell and Congress for this humbling opportunity, as the 
son of immigrants from the most oppressive nation on the 
planet, Syria, to have been able to serve you in this capacity 
on USCIRF.
    And I request that my written statement be submitted for 
the record.
    Mr. Smith. Without objection, so ordered.
    Dr. Jasser. Thank you.
    Before I start, let me also, as an American and humbly as a 
Muslim during this holy month of Ramadan, give my deepest 
condolences and prayers for the families and victims of the 
massacre in Orlando and to our Nation in this difficult time.
    On a global level, this hearing is especially timely given 
that there is global religious freedom crisis and a negative 
trajectory for religious freedom in countries that top the U.S. 
foreign policy agenda.
    It is evident from the media's top headlines and its 
coverage of issues, including the genocide in Syria and Iraq, 
the role of religion in humanitarian crises worldwide is 
undeniable, including the forced displacement of the largest 
number of people since World War II and the plight of prisoners 
of conscience detained for simply expressing their God-given 
religious freedom or advocating on behalf of this freedom in 
countries such as China, Sudan, Saudi Arabia, Iran, Egypt, 
Syria, or Vietnam.
    Pivotal to human rights, central to our history, and 
affirmed by our international treaties and obligations, 
religious freedom is crucial to the security of every nation 
and that of our world.
    A number of studies have shown that in countries that honor 
and perfect this right, religious freedom generally is 
associated with a vibrant political democracy. Rising economic 
and social well-being and diminished tension and violence 
follow. In contrast, nations that trample on religious freedom 
are more likely to be mired in poverty, insecurity, or terror, 
violence, and radical extremism.
    This instability directly bears on not only the well-being 
of those societies but on the security of the United States and 
overall global stability. I can't emphasize enough the wisdom 
in Congress in establishing USCIRF and looking at religious 
freedom as a parameter by which to guide societal successes 
versus societal failures.
    Religious freedom thus merits a seat at the table, and I 
personally would argue at the head of the table, with economic 
and security concerns as the U.S. and other nations conduct 
their complicated foreign affairs. But effectively promoting 
religious freedom can help the U.S. achieve crucial goals by 
fostering respect for human rights while promoting stability 
and ultimately our national security.
    So today I would like to focus on two things: One, how 
IRFA, or the International Religious Freedom Act, has been and 
should be used in the future; and, two, countries that are at 
the top of our foreign policy agenda where religious freedom 
remains under serious assault. And I have nine of them listed 
in my submitted testimony, and I will just cover two as 
examples.
    First of all, as far as IRFA, IRFA seeks to make religious 
freedom an important U.S. policy priority by, among other 
measures, establishing consequences for the worst violators of 
freedom of religion or belief.
    This law gave teeth, long overdue, to the effort by 
requiring the U.S. Government to designate annually countries 
of particular concern, or CPCs, thereby naming the worst 
foreign government violators that engage in or tolerate, as the 
statute says, systematic, ongoing, and egregious violations and 
take appropriate actions to create incentives for improvement 
and disincentives for inaction. A menu of possible actions is 
available, ranging from negotiating bilateral agreements, to 
imposing sanctions, to taking a commensurate action, to issuing 
waivers.
    IRFA did not limit violations to government actions. The 
law recognized that religious freedom violations also occur 
through government inaction against abuses by private actors. 
And this is very important. The 1998 statute does not, however, 
adequately address the increasing actions of non-state actors 
in failing or failed states. Allowing the United States to 
designate--it did allow the United States to designate the non-
state actors perpetrating particularly severe violators of 
religious freedom would broaden the U.S.'s ability to engage 
the actual drivers of persecution.
    And I would tell you, that absence in the statute, I think, 
gives the State Department a pass sometimes in not designating 
certain countries that should be a CPC and that they use that 
as a crutch rather than naming them as CPCs because they are 
non-state actors.
    In order to effectively utilize all the tools provided in 
IRFA, USCIRF recommends the State Department: Number one, 
ensure that the CPC list expand and contract as conditions 
warrant and not just be frozen for the most part, other than 
the most recent addition that they had. It needs to expand and 
contract realistically on an annual basis, not on a decade 
basis.
    Limit the use of waivers to set periods of time, and 
subject them to review for renewal.
    And we also recommend that Congress take legislative action 
to require that the State Department make annual CPC 
designations. Should the State Department fail to do so, we 
also ask that the Congress expand CPC classification to allow 
for the designation of countries where particularly severe 
violations of religious freedom are occurring but a government 
does not exist or does not control its territory. Right now, 
those countries cannot be named.
    And we would ask that the expansion of the CPC 
classification to allow the naming of non-state actors who are 
perpetrating particularly severe violations of religious 
freedom. I commend you, Representative Smith, for including 
such a position in H.R. 1150.
    A couple country examples. In the interest of time, I am 
going to talk about two of them, Burma and Egypt.
    In Burma in 2015, peaceful elections ended more than 50 
years of military-controlled government in Burma, yet the new 
government faces a myriad of human rights challenges. 
Throughout the year, the Burmese Government and non-state 
actors continued to violate religious freedom, and these 
violations became a defining element of their campaign season.
    The abuses were particularly severe for the Rohingya 
Muslims; their persecution became even more apparent when the 
magnitude of their flight from Burma captured international 
media attention.
    Instead of protecting those most in need, like the 
Rohingya, Burma's Government intensified its actions, isolating 
and marginalizing vulnerable groups, leaving hundreds of 
thousands of internally displaced Muslims and others without 
basic necessities.
    The government allowed expression of hatred and intolerance 
toward religious and ethnic minorities to continue unchecked 
and shepherded the passage of laws of four discriminatory race 
and religion bills. And when I was there, we were told that 
that probably wouldn't pass, and ultimately it did.
    And I can't tell you how much Burma is a good example of 
how political and other portfolios end up trumping religious 
freedom portfolios, and it should be used as an example of why 
IRFA is so important.
    USCIRF continues to recommend in 2016 that Burma be 
designated a CPC. The State Department designated Burma a CPC 
since 1999. We ask that the U.S. Government use the term 
``Rohingya'' publicly and privately, which respects the right 
of the Rohingya Muslim community to identify as they choose and 
not be marginalized.
    And we ask that the U.S. enter into a binding agreement 
with the Burmese Government, as defined in 405(c) of IRFA, 
committing it to ending violence and the policies of 
discrimination against religious and ethnic minorities.
    Burma is a great example of the central importance of IRFA. 
A state may focus inordinately on political improvements, not 
putting IRFA at the head of table.
    As far as Egypt, a lot has transpired in Egypt over the 
past few years, with changes in government and revolutions. But 
while the Egyptian Government has taken positive steps to 
address some religious freedom concerns, including President 
al-Sisi's public statements--which are now appearing to have 
been rhetoric--encouraging religious tolerance and moderation, 
past large-scale sectarian incidents have not been prosecuted, 
fueling a growing climate of impunity.
    In addition, the longstanding discriminatory and repressive 
laws and policies that restrict religious freedom remain in 
place like they always have been. During the past year, there 
was an increase in Egyptian courts prosecuting, convicting, and 
imprisoning Egyptian citizens for blasphemy and related 
charges.
    We recommended, thus, for a sixth year--the Commission did 
when I was on it--recommended for the sixth year in a row that 
Egypt be designated a CPC.
    USCIRF also recommends that we ensure a portion of the U.S. 
military assistance used to help police in Egypt implement an 
effective plan for dedicated protection for religious minority 
communities and their places of worship. And we also ask that 
they press the Egyptian Government to undertake immediate 
reforms to improve religious freedom conditions, including 
repealing the decrees banning religious minority faiths, 
including the Baha'i and Jehovah's Witness faiths.
    Lastly, let me conclude by saying that we can and will see 
the constructive change by improving our use of existing tools 
for religious freedom and related rights and adding new tools 
for that purpose. If we renew our resolve to integrate this 
fundamental right more fully into our Nation's foreign policy, 
we can bring genuine progress to those beyond our shores who 
yearn for freedom.
    Thank you.
    [The prepared statement of Dr. Jasser follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. And, Dr. Jasser, thank you, as well, for your 
tremendous service on the Commission, your excellent writings, 
which I have read and inserted in the record from time to time. 
Thank you for that.
    Dr. Jasser. Thank you.
    Mr. Smith. I know, Dr. George, you do have to leave for a 
train soon?
    Mr. George. I did, but we have pushed the train back.
    Mr. Smith. Okay. But I understand----
    Dr. Jasser. I have to leave in 15 minutes.
    Mr. Smith. Okay. So I will be very quick. And I thank you 
again for your patience.
    I have read for testimonies. The full will be made a part 
of the record, and parts of the report, too, you know, that is 
permissible under our rules, especially the executive summary 
of the recent report.
    You heard earlier when I quoted from the Supreme Knight----
    Mr. George. Carl Anderson.
    Mr. Smith [continuing]. Carl Anderson, who I have known for 
35 years. And he made some very, very good, keen observations 
about that the economic aid was not getting to the intended, 
the Christians were being bypassed by design or by accident, 
and also the importance of refugee status. And we have been 
raising that in this subcommittee for months, even years, that 
individuals who happen to be Christian, Yazidi, or Muslims who 
are being targeted don't get the help that they need, but 
especially Christians and Yazidis.
    My question would be about--and its in your testimony, Dr. 
George--the encouragement to the Global Coalition to Counter 
ISIL, that they integrate their work so they understand 
religious minorities. We haven't learned that lesson, it seems 
to me.
    I remember, with Kosovo, we actually had hearings with 
Archbishop Artemije, who would bring in these terrible 
depictions of centuries-old churches, monasteries being 
decimated by radical Islamic terrorists.
    And in Iraq, I remember on one trip to Baghdad hearing from 
Christians who said, ``The Americans are here, and we are more 
at risk now than we were before Saddam Hussein,'' when he 
reigned--a very, very terrible indictment, in my opinion. And 
then we would talk to the military, and they would say, ``We 
have it covered,'' but they didn't.
    And I am wondering if the Global Coalition is more attuned 
to lessons learned, if you will--that they have to really have 
a special prioritization and a laser-beam focus on, especially 
now, those who have been designated victims of genocide. Do you 
think that is happening? What would be your recommendations 
there?
    Mr. George. Well, I think it is necessary. I think we will 
have to direct the question of whether it is happening to our 
friends in the administration.
    I am sure everybody is doing the best that he or she can on 
this issue. It is obviously very complicated. It involves 
coordination with other countries. It involves coordination 
with United Nations agencies. We are not always on the same 
page, our country with other countries or with the U.N. But I 
think we really do have to make a very, very, very special 
effort to protect the most vulnerable people. I mean, I think 
that is the bottom line. Whatever has to be done, well, it 
needs to be done, will be done, should be done to protect the 
most vulnerable. And the most vulnerable are those who are 
vulnerable to the worst offenses, to enslavement, torture, 
rape, and murder.
    And Congressman Rohrabacher is right that that is not 
evenly distributed. Now, that doesn't mean that it is only 
Christians or only Yazidis or never Muslims. There are Muslims 
who are targeted for the same sort of atrocities that 
Christians and Yazidis are targeted for. So you can't deal with 
this simply by categorizing people neatly into groups. And yet 
we do know that the entire Christian community and the entire 
Yazidi community and some other smaller communities that we 
have outlined in the written testimony and in our report--all 
of the members of those communities are vulnerable in that way, 
all of them.
    Mr. Smith. Let me ask you, the seven countries you 
recommended, and then you have a narrative for each, and you 
have conveyed some of that orally today. Let me ask you about 
Vietnam, if you might want to speak to that issue, which I 
think is a no-brainer, that they ought to be designated a CPC. 
They were taken off the list prematurely last time, in the 
hope--and it was a realistic hope maybe--that they would 
improve. They didn't.
    Dr. George, I really appreciate your comment about the 
right to worship. I remember, in 1982, when I want to the 
Soviet Union, I kept hearing about how they had religious 
freedom enshrined in their constitution, and they defined it as 
right to worship, and even that was heavily truncated. But 
everything else--schools, hospitals, social services--all were 
part of the Communist Party's domain.
    And I am very worried about a trend that is happening 
worldwide, as I think you are. It is not right to worship; it 
is much more robust and expansive than that. So thank you for 
reminding the subcommittee of that, and you might want to speak 
to it further.
    And, on India, my understanding is that you had hoped to 
travel to India last year. And I know that Rabbi Saperstein had 
made inquiries about doing that as well. Could you speak to 
that whole issue?
    Mr. George. Sure. Yeah, let me start with that one----
    Mr. Smith. Please.
    Mr. George [continuing]. And then go back to a couple of 
the other points that you made.
    Yes, we have sent delegations, including members of the 
Commission and members of our terrific staff. And I want to 
take this opportunity to commend--now that I am no longer on 
the Commission, I want to say what I said so often when I was 
chairing the Commission.
    The staff of the United States Commission on International 
Religious Freedom is really quite extraordinary. It was just a 
privilege to work with such knowledgeable and dedicated people. 
There are very few of them; it is a small staff. They all do 
much more work than should be required of any individual, but 
that comes out of their dedication to the cause of religious 
freedom.
    Well, we send delegations, we have from the earliest days 
of the Commission, to countries, not only to meet with public 
officials and be schmoozed and entertained but also to try to 
see if we can meet with members of faith groups, ethnic 
minority communities, people who can give us the lowdown on 
what is really happening on the ground.
    We have found, over the course of our, what, 18 years or so 
now, 19 years of existence, that these are very valuable 
opportunities for us to learn what is going on on the ground 
when it comes to religious freedom in these countries.
    And, ordinarily, we are welcomed, even by some of the worst 
offending regimes. We were, therefore, taken aback when our 
proposed visit to India to do some fact-finding there was 
rebuffed. Visas were not granted to our people to make the 
trip.
    Now, India is an ally. It is a democratic nation. There is 
much to praise in the record of India, and we know that, 
including in some human rights areas, but there are also some 
problems. And we wanted to get our finger on those problems, 
more deeply understand what we are quite confident is a 
complicated picture. So we wanted to send our delegation. And 
yet the Indian officials, by refusing to grant the visas, made 
that impossible.
    When I registered in the public media a relatively mild 
protest, saying that it is really unfortunate that India has 
not granted these visas, well, this was met with an outpouring 
of--I am not quite sure how to say this politely--abuse by 
people in India and those outside of India who are sympathizing 
with some of the groups that we are concerned about, especially 
Hindu nationalist groups that we are concerned about in India, 
met with abuse directed toward me and directed toward the 
Commission and directed toward my fellow commissioners, 
claiming that we were engaging in neo-imperialism and so forth 
and so on.
    Of course, we are worried about some things that have 
happened in India. Of course, there is the historic treatment 
of the Dalit, which is shameful. There is the, in some cases, 
persecution of Muslim minority groups, persecution of Christian 
groups, and, of course, some abuses toward Indians, including 
Hindus, who do not go along with the more extreme forms of 
Hindu nationalism.
    So we had a perfectly legitimate reason, Mr. Chairman, to 
visit India: To engage. We wanted to engage them, we wanted to 
listen, we wanted to hear what they had to say, the government 
as well as the civil society groups. We had a perfectly 
legitimate reason, but they don't want us to come.
    And I do hope that when we seek visas again, when a future 
commission seeks visas, India will reserve itself on this and 
visit with our people and engage our people, talk with our 
people. And let's see if we can work together toward improving 
the human rights and religious freedom situation in India, 
which the new President, President Modi, says that he wants to 
do.
    Now, you had raised a couple of other points, and I want to 
give Zuhdi a chance to speak, because he has to run, if he was 
something to say on those points.
    But on this matter of the reduction of religious freedom to 
the mere right to worship, I think we need to be very clear. We 
need to be clear in our own minds and we need to be very clear 
with those we are engaging on our own side, within the Congress 
and the administration, and very, very clear with, especially, 
offending regimes that the right to religious liberty is a 
broad right, it is a robust right.
    It is the right to hold a belief or no belief, as one's 
conscience dictates. It is the right to change one's faith from 
one to another, as conscience leads, or to abandon faith 
altogether if that is where conscience leads.
    It is the right to express one's faith, Mr. Chairman, in 
public and not merely in private, to enter the public square 
and to express one's views, advocate on behalf of one's 
religious beliefs to others, as long as one also respects their 
right to listen or not listen as they see fit, to engage one to 
try to persuade one in the opposite direction.
    And, very fundamentally--and let this never be lost--it 
also means the right to enter the public square and, on the 
basis of one's religiously informed convictions about justice 
and the common good, advocate positions regarding public 
policy, vie for the allegiance of one's fellow citizens, seek 
to correct what one views as injustices, precisely as Dr. 
Martin Luther King did.
    Fortunately, we did not say to Dr. King, ``You are a 
religious man, you are a preacher, you speak in terms of God 
and the Bible. That violates the separation of church and 
state. You can say that stuff in your church, but don't enter 
the public square and try to change public policy based on this 
religious teaching.''
    To have said that to King would have been for us to be 
profoundly untrue to our own convictions and principles as 
embodied in our Constitution and Declaration of Independence. 
And to say that to religious people today is equally an offense 
against the best in our traditions.
    Zuhdi, I want to give you a chance because you have to run 
to the airport.
    Dr. Jasser. Yeah.
    Thank you, Chairman. There are actually four things I want 
to--and they may not respond directly to your last question, 
but just in the interest of time.
    First of all, there was a comment made earlier about the 
faith of the people escaping Syria. And as much as, certainly, 
there has been a genocide perpetrated against the Yazidis, the 
Christians, and other minorities by ISIS, to say that the 
Muslim community--in all due respect to Congressman 
Rohrabacher's opinion--is leaving because of jobs and other 
issues, they were targeted, I believe--and this is my personal 
opinion, not that of the Commission. There was a genocide 
against the Sunnis and has been perpetrated for years, with 
over 500,000 killed. Somewhere upwards of 95 percent of those 
killed have been Sunni Muslims.
    They are not leaving because of jobs and looking for a 
better place. They are leaving because they have been targeted 
by the Assad regime. And our recommendations do ask that that 
be looked at.
    And to that, actually, the comments about Russia, I think, 
also need a contrary opinion to be responded to, which is that 
our Commission has listed Russia as a country on the Watch List 
or Tier 2, and I have a dissent in our report, that I believe 
personally that Russia should be on the CPC list. It is not 
just the Jehovah's Witness, but it is Muslims, and it is 
systematic--I believe systematic and egregious changes in the 
law. Their actions in Crimea, their actions in the Ukraine and 
other places have demonstrated their complete disregard for 
religious freedom, except the religion of the state.
    And I will say, again, taking off my USCIRF hat but simply 
as the chairman of the American Islamic Forum for Democracy, 
their actions in Syria are also perpetrating a genocide in a 
foreign operation, which I think mirrors what they do 
domestically in Russia. And I think you see this also with 
Iran, who is helping what is happening in Syria. What they do 
domestically they also do abroad.
    Next is the issue on Saudi Arabia's waiver. I want to also 
leave you with the thought that we need to bolster IRF 
recommendations and statutes so that the waiver is not simply 
used.
    I have been to Saudi Arabia on behalf of USCIRF, and they 
almost seem more concerned about the verbiage than even whether 
we designated them as CPC, because they have had this 
absolution of getting a waiver from the White House and the 
State Department year after year. That is a blight on the 
impact of IRFA, the waiver that continues to be given to Saudi 
Arabia.
    And the waivers are used, understandably, for national 
security issues and others, but it makes the comments about 
Natan Sharansky and all these other things that we say, that we 
stand for freedom and prisoners of conscience, it makes it 
simply a paper drill rather than actually having impacts, as we 
said when we designated genocide. What is the impact if the 
IRFA act of sanctions and other things don't fall into play?
    Lastly, I want to use Malaysia as an example. It has been 
on our Watch List. We went to Malaysia and Indonesia. We met 
with civil society groups. And to Dr. George's comments, 
women's groups after Islamic liberal groups told us: Stop 
calling us a moderate Islamic country. They have been headed 
toward more and more religious repression, and they do not 
feel--the groups we spoke to do not feel that it is a moderate 
Islamic country because of the infiltration of Islamism, Sharia 
state mentality, Wahhabism, and other infiltration.
    So these issues, I think, look at their designation that we 
talk about in our report. And I think it is also very 
instructive to show how religious freedom will follow than 
other degradations of freedoms in those countries. Thank you.
    Mr. George. Mr. Chairman, if I can just reinforce that 
third point that Dr. Jasser made about the use of waivers.
    Now, the statute permits the waivers. There is no question 
about that, and we are not asking for that to be eliminated, 
but I do think it is very important, if a waiver is to be 
granted, that the waiver not be for an indeterminate length of 
time, that it not be an indefinite waiver, number one. And 
number two, I think it is critically important that we not give 
unconditional waivers. If we are going to do unconditional 
waivers, we are actually giving away the content of the CPC 
designations.
    So I am sorry that I would like to make this point to 
David, although he has heard me make it before. Unfortunately, 
he had to leave. But let's press on this, if we possibly can. 
No more indefinite waivers. No more unconditional waivers.
    Mr. Smith. As you know, the new International Religious 
Freedom Act, the one that has passed the House, does limit to 
90 days, with an additional 90 days, except for true national 
security reasons, because waivers are violated with impunity by 
administrations. And unfortunately, this one has done so like 
no other.
    I would also point out that when it comes to implementation 
of these policies, faithfulness does matter. I also am the 
author of the Trafficking Victims Protection Act. On the most 
recent occasion, 14 countries got inflated grades, and Reuters 
did the investigative work that proved that the tipoff, this 
trafficking person's office clearly said, this is a Tier 3 
egregious violating country, Malaysia was one of them, but for 
nonhuman trafficking purposes, got an inflated grade so that 
they could be part of the TPP. Or Cuba, because we have a 
rapprochement going, so we can throw them a bone even though 
their policies on trafficking are atrocious. Same goes for Oman 
and many other countries, 14 in total.
    So we need to insist, all of us, on faithful implementation 
of these statutes, whether it be religious freedom or 
trafficking or any other human rights----
    Mr. George. Exactly.
    Mr. Smith [continuing]. Policy.
    And, Mark.
    Dr. Jasser. And just one last comment. I think there is 
nothing that is more exemplary, emblematic of the sort of end 
around that sometimes the State Department does on the CPC than 
the fact that Syria is not listed as a CPC.
    So to say that it is not a CPC, almost everyone I talk to 
says that is a bizarre thing. And then you look at non-state 
actor issues, et cetera, we have got to either fix IRFA so that 
Syria--use that as a template to hold State Department 
accountable, because if Syria is not a CPC, then what is a CPC?
    Mr. George. I also owe you an answer, Mr. Chairman, on 
Vietnam. And I think we just have to, frankly, acknowledge that 
a mistake was made back in 2005, 2006 when, after Vietnam did 
institute some reforms, the government acted precipitously, in 
my opinion, to remove them from the list, and of course, they 
slid right back into their old ways.
    We have--we, again speaking as if I am still on the 
Commission. I can't get out of that mode. But the Commission, 
when Dr. Jasser and I were serving, and in the report for 2016, 
does recommend CPC status for Vietnam. And I want to here 
publicly again, urge the State Department at the earliest 
opportunity to make that designation. And my hope would be that 
it would have the good effect that it had earlier of getting 
some reforms for the suffering people of all faiths, by the 
way, of all faiths in Vietnam, whether we are talking about 
Buddhists, whether we are talking about Catholics, whether we 
are talking about the small evangelical Protestant minority.
    All are victims there. I mean, it is a classic case of a 
Communist regime wanting to eliminate or drive into the ground 
any alternative authority structure of any kind, and of course, 
religions are the most important alternative authority 
structures in any society. So let's try to get Vietnam back on 
the list.
    Mr. Smith. Thank you for that. The Venerable Thich Quang 
Do, I met him. He is still under pagoda arrest. He can't leave 
his--he can't walk out the door without government people 
pushing him right back in. Father Loi, there are so many, and 
then all of those who are actually in prison still. So thank 
you for that leadership.
    Mark Meadows.
    Mr. Meadows. Dr. Jasser, I am going to give you your exit 
and just say thank you so much for not only being willing to be 
bold and speak the truth. It is refreshing, because of your 
faith and because of who you are, to be able to use you in a 
real way to discern some of the aspects that perhaps, because 
of my faith, I would be ignorant of. And so I just want to say 
thank you. And I know you have got to catch a plane, so I don't 
want you to have to hang around.
    Dr. Jasser. Thank you.
    Mr. Meadows. We have had a number of personal meetings, and 
I look forward to many more. And so I will pick up on a 
question for Dr. George as you leave. How about that?
    Dr. Jasser. Thank you. Let me just make one parting 
comment, as it has been such a humbling honor to serve on 
USCIRF. It is always amazing how the American public, media, 
Government are--we have this American penchant not to offend 
other faiths and to protect, in the name of religious freedom, 
protecting other faiths.
    And yet we forget that our roots--these halls were created 
by our forefathers who were devout God-fearing Christians that 
hated theocracy, that wanted to defeat theocracy, and yet we 
don't want to give the same battle to Muslims.
    Mr. Meadows. Right.
    Dr. Jasser. That somehow, if Muslims are against theocracy, 
or we, as Christians, or Jews or not, I am not a--I am Muslim, 
but we--the majority in America can't enable Muslims who are 
antitheocracy to have a voice in the name of a faith they love 
with tough love, then we seem to have forgotten the roots of 
the Founding Fathers.
    Mr. Meadows. Well said. Thank you. Thank you, Dr. Jasser.
    Mr. George. May I, as my friend and colleague is leaving, 
just say one thing about him because I think it is very 
important for the Congress and for the American people to 
understand this. Dr. Jasser's profound witness in favor of 
American ideals and institutions, in favor of liberty, in favor 
of justice comes from his Muslim faith. Does everybody 
understand this? This man is a good American, not because he is 
a bad Muslim. He is not a bad Muslim. He is a devout believing 
Muslim, and it is from his faith that he joins together with 
all of us who want to uphold religious freedom for all.
    So I would say to my fellow Americans: Look at this man 
when you are tempted to think that the only way a Muslim can be 
a good American is to be a bad Muslim. No. That is not what the 
witness and example of Zuhdi Jasser stands for.
    Mr. Meadows. Well said.
    Mr. George. To be the very best of Muslims is like being 
the very best of Christians or very best of Jews. It is to be 
someone who stands for justice and human rights as Zuhdi Jasser 
has done.
    Mr. Meadows. Well said.
    Dr. Jasser. I am--too humbling. Thank you.
    Mr. Meadows. Thank you, Dr. Jasser.
    Dr. George, let me come back to you. One, you just made a 
very impassioned and what I would think insightful argument on 
behalf of religious freedom, not the freedom to worship as we 
please. And there is a big difference between the two, and it 
seems like there has been--now, one includes the other, but a 
freedom of worship doesn't necessarily include the expanse of 
what you just articulated. And I think that is a defining 
moment that we must, on every main street across this great 
country that we love, start to show the difference, because 
what has crept into so much of our rhetoric and speeches is the 
freedom to worship as we please.
    Would you agree that that is not what the Founding Fathers 
intended when we talked about religious liberty and protection?
    Mr. George. The Founding Fathers certainly, certainly, we 
can say this with certainty, did not mean to limit the free 
exercise of religion, as it says in the First Amendment, to the 
mere freedom to worship. The free exercise of religion 
certainly includes, centrally includes the freedom of worship, 
but it includes so much more.
    And that is why, Representative Meadows, I went into some 
detail. I am grateful to the chairman's indulgence because it 
was a little bit off point, my little philosophical lecture, 
but I think it is relevant to the practical issues that we are 
dealing with today because some people are tempted to think 
that people enjoy freedom of religion if they enjoy the freedom 
to attend the mosque or the church or the synagogue, to pray 
around the dinner table or on their knees at bedtime. But the 
reality is, if that is all they have got, they have only got a 
fragment of the fundamental human right to religious freedom, 
which does include the right to go into the public square to 
advocate, to act on one's religiously inspired or religiously 
informed judgments about justice and the common good, as Martin 
Luther King did.
    There is no sense, none, zero, in which our Founding 
Fathers, including Jefferson, who is often trotted out as an 
anti-religious person or as a person who wanted to restrict 
religion to the narrowest confines of the private sphere, there 
was no Founding Father, including Jefferson, who sought a 
privatization of religion. It was Jefferson, Representative 
Meadows, who said, speaking of slavery, himself a slave owner, 
who said, speaking of slavery: I tremble for my country--not 
just I tremble for myself, as if it were a private sin--I 
tremble for my country when I consider that God is just, that 
his justice will not sleep forever.
    There are some times when we must tremble for our country 
because of injustices that we, as a people, are guilty of, and 
there, the prophetic voice of faith must speak to us not in the 
narrow confines of private life but in our public lives 
together as citizens.
    Mr. Meadows. Well, it is indeed foundational. It is truly 
what I believe our Founding Fathers not only envisioned but 
practiced. And so in doing that, it is important for us as we 
preserve those liberties. So let me shift gears, and I want to 
talk a little bit about Sudan.
    I heard Ambassador Saperstein talk about the potential for 
real progress in Sudan. I know I have personally met with not 
only Sudanese Government officials here in Washington, DC, on 
this topic, as well as the economic prosperity of Sudan. We 
know where they are today in terms of not only sanctions but 
other potential retributions that--because of their government 
philosophy. And yet, I guess I would be remiss in not asking, 
is there a glimmer of hope where truly we can find the start, 
the kernel of a seed supposedly sprouting for religious liberty 
and protection?
    I have sensed some of that from government officials and 
from those who talk on their behalf here in Washington, DC, and 
yet I hear conflicting messages from those, some that are in 
countries. And I go way back with Sudan. My mom was in Khartoum 
almost 50 years ago, and we have been very supportive of those 
who have horrifically had to eat leaves off of trees to 
survive. And so in doing that, it is not with an ignorance of 
what has happened but with a hope of what could potentially 
happen, and so I ask you to give me your candid thoughts on 
that.
    Mr. Smith. Would the gentleman yield before----
    Mr. Meadows. Sure.
    Mr. Smith. I would just note, and I think the records 
reflect it, Mr. Meadows played the pivotal role in effectuating 
the release of Meriam Ibrahim.
    Mr. George. Yes.
    Mr. Smith. He got the entire Congress mobilized, meetings 
with the Ambassador and he had a very, very effective 
diplomatic initiative that yielded the release of that 
wonderful woman and her children. So I just think the record 
should recognize that.
    Mr. Meadows. Well, you are very kind. I thank the 
gentleman, and he is humble in not acknowledging his own role 
in that particular situation.
    But please, Dr. George.
    Mr. George. Well, I know I speak for an awful lot of people 
in the religious freedom advocacy community in saying that we 
thank you both for your efforts on her behalf. I had the 
pleasure of being on the dais with her when the Pope spoke in 
Philadelphia. She and I were among the warmup acts for Pope 
Francis, so I got to speak with her and then to listen to her 
give her speech. And she is a wonderful witness, and she is 
here because of your work. And we are just so grateful for her 
and for what you did for her, and in that way, also for all of 
us.
    Representative Meadows, my heart breaks for the people of 
Sudan. Those people have suffered for so long and so intensely. 
Weak government, corruption, persecution, abuse, civil war. It 
is hard to think of a spot on earth more bleak, more dismal for 
the people than Sudan. Religious freedom in Sudan remains--the 
conditions for religious freedom remain poor. I can't--I 
can't--I can't give you a rosy picture. The reality is what it 
is.
    But I have known Ambassador Saperstein for many, many 
years. I have worked with him long before he came to his 
position as--I wish he had more power.
    Mr. Meadows. Yeah.
    Mr. George [continuing]. Before he came to his position as 
Ambassador. And if he perceives a glimmer of hope, that is 
enough for me to conclude that there is a glimmer of hope, but 
it can't really be more than a glimmer. So the question is: How 
do we do something with that? If there is a little ember still 
alive, how do we work to see if we can fan that into a flame?
    Well, first, of course, we have to acknowledge the reality. 
Since 2011, members of Sudan's Christian community, minority 
Christian community have been arrested, their religious 
buildings desecrated or destroyed, churches and their 
educational institutions and schools and so forth, Sunday 
schools closed, and their literature, even their religious 
literature has been confiscated. There continues to be a 
persecution.
    So if anything is to be done, our recommendations to our 
Government are as follows: Try to enter into an agreement with 
the Government of Sudan that would set forth our commitment--
set out a set of commitments that the Government of Sudan would 
undertake to address the worst offenses.
    First, end prosecutions and punishments for apostasy.
    Second, maintain provisions currently in the interim 
constitution respecting the country's international human 
rights commitments and guaranteeing religious freedom. At a 
minimum, those formal guarantees. Now, we know formal 
guarantees, parchment guarantees, as our Founders called them, 
aren't enough, but they are a necessary condition of doing 
more, so we need to get those into the actual final 
constitution.
    Lift government prohibitions on church construction, the 
issuance of permits for building new churches; create legal 
mechanisms to provide compensation for those congregations who 
have had their churches destroyed; and get serious about 
addressing attacks on churches or on religious people, like 
Christians, who are victimized when rogue individuals or groups 
of thugs or mobs commit those atrocities against people. 
Prosecute them, punish them, repeal or revise all articles in 
the 1991 criminal code which violate Sudan's international 
commitments to religious freedom and belief.
    And then finally, hold people accountable, whether they are 
government officials or private individuals, for any attacks on 
houses of worship, on individuals, any acts of discrimination 
against people because of their religious affiliation or 
religious beliefs. That is what we would like to see in an 
agreement entered into between our Government and the 
Government of Sudan.
    Mr. Meadows. Thank you, Dr. George.
    Mr. Chairman, I will yield back. I thank you.
    Mr. Smith. Thank you very much.
    Thank you, Dr. George. And anything else, Dr. George, you 
would like to----
    Mr. George. I would like to say a word about Pakistan.
    Mr. Smith. Please do.
    Mr. George. We haven't spoken enough about Pakistan. Of 
those seven nations that you rightly pressed Ambassador 
Saperstein about, the State Department not designating. We have 
made recommendations for designations as CPCs. Among those 
seven nations who haven't been designated, despite our 
recommendation, in many cases despite more than a decade of 
recommendations, if I had to choose one, it would be a bit of a 
tough choice because you have got Vietnam, for example, on the 
list, but if I had to choose one, if the State Department would 
give me one that I could designate myself out of the seven, I 
am afraid it would be Pakistan.
    Pakistan is one of the world's worst offenders. And once 
again, that is especially ironic because you have a democratic 
country, you have--always an ally of the United States. We have 
been calling for this designation for an awfully long time, and 
it is really high time that the designation be made. And 
remember, this is a place where the persecution and abuse is 
meted out against various religious minorities, including 
Muslim religious minorities, such as the Shia minority, or 
indeed those members of the Sunni community who dare to express 
any dissent from the extremism of the official policy.
    The abuse of the Ahmadiyya Muslim community in Pakistan, 
the ongoing egregious systematic long-term abuse rooted not 
only in government policy but in prejudice within the civil 
society has got to be made a priority. The Ahmadiyya Muslims 
are peaceful people. They have caused no harm to anyone in 
Pakistan. They simply wish to worship as their conscience leads 
them. They wish to call themselves Muslims because they believe 
that they are Muslims. They follow the Koran, the other 
traditional Muslim teachings, and yet, as a matter of 
constitutional law of Pakistan, they are discriminated against. 
In the very constitutional law, they are not permitted to call 
themselves Muslims.
    Now, within any religious community, there may be 
disagreements. Members of one Christian denomination may feel 
that members of another group who call themselves Christians 
aren't really Christians because they don't have the right 
doctrines and so forth, and yet we would rightly be appalled if 
anyone sought to use government power to punish people who 
called themselves Christians, despite somebody else believing 
that they are not really Christians.
    Well, government power is being used against the peaceful 
Ahmadiyya community in Pakistan. That is also true of Saudi 
Arabia, by the way, but it is especially true in Pakistan. And 
I would really like the Congress to make it a priority in the 
advocacy concerning Pakistan that Pakistan must cease the 
oppression of the Ahmadiyya. And I think the same should be 
true, by the way, when we are talking about the Baha'i minority 
in places like Iran. Here again is a peaceful religious group, 
has never caused anybody any harm, are persecuted simply 
because of their beliefs.
    These are really egregious cases because governments can't 
hide behind the concern that, well, we are really fighting 
terrorism. We have to oppress this group or that group because 
terrorism is being incubated in those groups. Nobody can say 
that about the Ahmadiyya. Nobody can say that about the 
Baha'is.
    But back to Pakistan. The abuses are so widespread and so 
deeply entrenched that we need to put as much pressure as we 
can on our Government to put as much pressure as it can on the 
Pakistani Government so that it will begin to relent from its 
own abuses and start doing something about the abuses of 
religious minorities by private organizations or individuals or 
mobs burning down churches and so forth within Pakistan.
    So thank you, Mr. Chairman, for giving me a few minutes to 
make that point about Pakistan.
    Mr. Smith. Oh, thank you. And as we know, Indonesia, as you 
point out, also is discriminatory toward Ahmadiyya, the 
Muslims. So I am losing my voice. I apologize.
    Thank you, Dr. George. I know you have missed two trains. I 
am deeply appreciative and----
    Mr. George. Thank you, Mr. Chairman.
    Mr. Smith [continuing]. I thank you for your tremendous 
leadership. It has made a colossal difference in a positive 
way, so thank you.
    The hearing is adjourned.
    Mr. George. Thank you, Mr. Chairman.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                    [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
